<html>
<title> - THE FUTURE OF NUCLEAR POWER: ADVANCED REACTORS</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
             THE FUTURE OF NUCLEAR POWER: ADVANCED REACTORS

                              ----------                              


                      WEDNESDAY, JANUARY 16, 2019

                               U.S. Senate,
      Subcommittee on Energy and Water Development,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Kennedy, Hyde-Smith, 
Feinstein, and Shaheen.



              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development will please come to order. Today's hearing is to 
discuss advanced nuclear reactors. Senator Feinstein and I each 
have an opening statement and then I will recognize each 
Senator for up to 5 minutes for an opening statement, 
alternating between the Majority and the Minority in the order 
in which they arrived. Then we will turn to Mr. Edward 
McGinnis, who is the Principal Deputy Assistant Secretary for 
Nuclear Energy, for his testimony on behalf of the Department 
of Energy, then to Dr. Thomas Zacharia, Director of the Oak 
Ridge National Laboratory, for his testimony, and finally Dr. 
Christina Back, Vice President of Nuclear Technologies and 
Materials at General Atomics, for her testimony.
    Ms. Back. In California.
    Senator Alexander. In California, excuse me.
    [Laughter.]
    Senator Alexander. I do not know how I avoided saying 
that--in California, underscore. So at the conclusion of the 
witnesses' testimony, I will then recognize Senators for 5 
minutes of questions each, alternating between the Majority and 
Minority in the order in which they arrived.
    Every week Senator Whitehouse of Rhode Island goes to the 
Senate floor to deliver warnings about climate change. Last 
year, he and I wrote a New York Times Op-ed together that said, 
if you care about climate change it makes no sense to shut down 
nuclear power plants because nuclear electricity provides 60 
percent of our carbon-free electricity. But the real prospect 
exists at the United States, which has led the world in the 
peaceful years of nuclear energy, may find itself in the near 
future without these emission-free nuclear reactors.
    This morning comes from the Center for Strategic and 
International Studies. It comes from individuals like Bill 
Gates, and investors who want to build advanced reactors. This 
hearing is to discuss perhaps the most promising way to ensure 
a nuclear industry for America's future, and that is to 
accelerate the development of advanced reactors--specifically 
to deal with the single biggest obstacle facing this 
development, which is, in one word, cost. One of the most 
intriguing ways to reduce cost is 3D printing, which is a 
conceptually simple process of using a computer model to join 
materials one layer at a time to make complex objects. We will 
hear more about that from Dr. Zacharia. In other words, the 
computer program can create an auto tool--a tool to make an 
auto part, or even a replica of a Ford Shelby Cobra. In fact, 
in May 2017 the Secretary of Energy, Rick Perry, drove a 3D 
printed car--a Ford Shelby Cobra at the Oak Ridge National 
Laboratory.
    The tantalizing question is, what if this 3D printing 
process were used to build nuclear reactors? Could it 
significantly reduce cost enough to make nuclear reactors 
competitive, or nearly competitive, with natural gas? For 
fiscal year 2019, Congress appropriated $30 million through the 
Oak Ridge Laboratory to begin work to demonstrate that we can 
build an entire nuclear reactor with 3D printing. This project 
is called the Transformational Challenge Reactor. I will look 
forward to hearing from Dr. Zacharia to tell us more about that 
today.
    Let us address for a moment this question of cost. We have 
98 nuclear reactors in the United States. They are large 
pressurized water reactors and boiling water reactors. They 
have the capacity to generate between 600 and 3900 megawatts of 
electricity--in other words they are big. They are licensed to 
run for 40 years through the possibility of continuing to run, 
in some cases, for up to 80 years. Right now we know that 12 of 
our 98 nuclear reactors plan to shut down early by 2025, within 
6 years before their licenses expire. And the reason they are 
shutting down is primarily cost. They cost too much to operate 
in competition with natural gas, and to some extent, Government 
subsidized wind power. Chances are these reactors will not be 
replaced with nuclear power for the same reason, cost.
    Only two reactors are currently being built in the United 
States, the Vogtle reactors in Georgia, while China is 
currently building 15 reactors with a plan to construct an 
additional 43. The cost of constructing the two reactors 
underway in the United States is a total of $25 billion. But by 
comparison, constructing two natural gas plants to produce 
about the same amount of electricity would cost less than $2 
billion. TVA (Tennessee Valley Authority) recently built the 
Allen Natural Gas Plant in Memphis for $975 million. It 
produces about the same amount of electricity as one of the new 
Vogtle reactors--each has a capacity of about 1100 megawatts. 
The big nuclear reactors cost more than 10 times to build. They 
last longer and their fuel is less expensive over time, but the 
cost of construction is a massive barrier.
    Advanced reactors, which use different fuels and different 
coolants than today's existing light water reactors, provide 
the opportunity to address some of these issues. They are 
smaller. They can be built at lower cost. They cost less to 
operate. They are potentially safer, and generate less nuclear 
waste. The stakes here are very high. We have seen what 
happened in Japan and Germany for different reasons. Their 
major industrialized economies similar to ours lost their 
emission-free, low cost, reliable nuclear electricity. Prices 
went up. Pollution went up. Manufacturing became less 
competitive in the global marketplace. That is where we are 
headed in the United States in the next 10 years unless we 
change something. The bottom line is, in order to expand 
nuclear power in this country, we need to solve two problems.
    First, we need to solve the nuclear waste stalemate, 
something my colleague, Senator Feinstein, passionately cares 
about--something we have been stuck in for the past 30 years. I 
want to resolve the nuclear waste stalemate this year. I 
support funding Yucca Mountain, and proceeding with plans to 
allow used nuclear fuel to be stored at interim storage sites 
and at private facilities. I want to move ahead on all fronts. 
I expect President Trump will continue to request funding to 
restart the licensing process for Yucca Mountain. To emphasize, 
that licensing process only moves ahead so it can be 
determined, officially, whether it is safe to continue with 
Yucca Mountain, and I look forward to moving forward on all the 
tracks, as I said, at once.
    Second, we must address the high cost to build a new 
nuclear plant. I believe the advanced reactors give us the 
opportunity to do that. Today we will look at what types of 
advanced reactors are being developed, how advanced reactors 
will be different from existing reactors, and how those 
differences will help overcome some of the challenges nuclear 
power faces today, including size and the cost of 
construction--how continuing to support existing reactors and 
small modular reactors can help sustain our current nuclear 
capability until advanced reactors can be built, what the 
Department of Energy, our 17 national labs in the nuclear 
industry, are doing to develop and build advanced reactors, and 
will also consider what additional steps the Federal Government 
needs to take to help develop and build advanced reactors that 
exist today. In other words, can advanced reactors that cost 
less to build and operate help us to avoid the higher cost of 
electricity that Germany and Japan are seeing, while at the 
same time offering a form of electricity that is emission-free? 
Nuclear power must be part of our energy future, if we want a 
future with clean, cheap, and reliable energy that can create 
good jobs and keep America competitive in the global economy. 
We hope to learn from the witnesses today what Congress can do 
to support advanced reactors and help grow the nuclear industry 
in the United States.
    With that, I would like to recognize Senator Feinstein, our 
Ranking Member, for her opening statement.
    [The statement follows:]
             Prepared Statement of Senator Lamar Alexander
    Every week, Senator Whitehouse of Rhode Island goes to the Senate 
floor to deliver warnings about climate change.
    Last year, he and I wrote a New York Times op-ed together saying 
that if you care about climate change, it makes no sense to shut down 
nuclear power plants because nuclear power provides 60 percent of our 
carbon-free electricity.
    But the real prospect exists that the United States, which has led 
the world in the peaceful use of nuclear technology, may find itself in 
the near future without these emission-free nuclear reactors.
    This warning comes from the Center for Strategic and International 
Studies and also Bill Gates and a group of investors who want to build 
advanced reactors.
    This hearing is to discuss perhaps the most promising way to assure 
a nuclear industry for America's future, and that is to accelerate the 
development of advanced reactors. And specifically, to deal with the 
single biggest obstacle facing this development, which is one word--
cost.
    One of the most intriguing ways to reduce cost is with 3D printing, 
which is a conceptually simple process of using a computer model to 
join materials, one layer at a time, to make complex objects.
    In other words, a computer program can create an auto part, a tool 
to make an auto part, or even a replica of a Ford Shelby Cobra. In 
fact, in May 2017, the Secretary of Energy Rick Perry drove a 3D-
printed Ford Shelby Cobra at the Oak Ridge National Laboratory.
    The tantalizing question is, what if this 3D printing process were 
used to build nuclear reactors? Could it significantly reduce the cost 
enough to make nuclear reactors competitive with natural gas?
    For fiscal year 2019, Congress appropriated $30 million to Oak 
Ridge National Laboratory to begin work to demonstrate that we can 
build an entire nuclear reactor with 3D printing. This project is 
called the Transformational Challenge Reactor. I look forward to 
hearing Dr. Zacharia from Oak Ridge National Laboratory tell us more 
about that today.
    Let's address for a moment the question of cost.
    Our existing 98 reactors are large, pressurized water reactors and 
boiling water reactors; they have the capacity to generate between 600 
and 3900 megawatts of electricity; and they are licensed to run for 40 
years, with the possibility of continuing to run some for 80 years.
    Right now, we know that 12 of our 98 nuclear reactors plan to shut 
down early by 2025--within 6 years--before their licenses expire. And 
the reason they are shutting down early is primarily because of cost--
they cost too much to operate in competition with natural gas and, to 
some extent, government subsidized wind power.
    Chances are, these reactors won't be replaced with nuclear power 
for the same reason--cost.
    Only 2 reactors are currently being built in the United States (the 
Vogtle reactors in Georgia), while China is currently building about 15 
reactors, with a plan to construct an additional 43.
    The cost of constructing the two reactors in the United States is 
$25 billion. But by comparison, constructing two natural gas plants to 
produce the same amount of electricity would cost less than $2 billion.
    TVA recently built the Allen Natural Gas Plant in Memphis for $975 
million, and it produces about the same amount of electricity as one of 
the new Vogtle reactors will. (Each has a capacity of about 1,100 
megawatts.)
    The big nuclear reactors cost more than ten times to build. They 
last longer and their fuel is less expensive over time, but the cost of 
construction is a massive barrier.
    Advanced reactors, which use different fuels and different coolants 
than today's existing light water reactors, provide the opportunity to 
address some of these issues: They are smaller and can be built at 
lower cost; they cost less to operate; and they are potentially safer 
and generate less nuclear waste.
    The stakes are very high here. We have seen what happened in Japan 
and Germany for different reasons. There, major industrialized 
economies similar to ours lost their emission-free, low-cost, reliable 
electricity. Prices went up, pollution went up, and manufacturing 
became less competitive in the global marketplace. And that is where we 
are headed in the next 10 years unless something changes.
    The bottom line is--in order to expand nuclear power in this 
country, we need to solve 2 problems:
    First, we must solve the nuclear waste stalemate, which we have 
been stuck in for the past 30 years.
    I want to resolve the nuclear waste stalemate this year. I support 
funding Yucca Mountain and proceeding with plans to allow used nuclear 
fuel to be stored at interim storage sites and at private facilities. I 
expect President Trump will continue to request funding to restart the 
licensing process for Yucca Mountain, and I look forward to moving 
forward on all tracks at the same time.
    Second, we must address the high cost to build a new nuclear plant. 
I believe advanced reactors give us a chance to do that.
    Today we will look at: what types of advanced reactors are being 
developed; how advanced reactors will be different than existing 
reactors, and how those differences will help overcome some of the 
challenges nuclear power faces today including size and the cost of 
construction; how continuing to support existing reactors and small 
modular reactors can help sustain our current nuclear capabilities 
until advanced reactors can be built; what the Department of Energy, 
our 17 national laboratories, and the nuclear industry are doing to 
develop and build advanced reactors; and what additional steps the 
Federal Government needs to take to help develop and build advanced 
reactors that exist today.
    In other words, can advanced reactors that cost less to build and 
operate help us avoid the higher cost of electricity that Germany and 
Japan are seeing, while at the same time offering a form of electricity 
that is emission free?
    Nuclear power must be part of our energy future if we want a future 
with clean, cheap, and reliable energy that can create good jobs and 
keep America competitive in a global economy.
    We hope to learn from the witnesses today what Congress can do to 
support advanced reactors and help grow the nuclear industry in the 
United States.
    With that, I would like to recognize Senator Feinstein, our 
subcommittee's ranking member, for her opening statement.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much Mr. Chairman, and 
thank you for holding this hearing. Once again, we are together 
and I appreciate that.
    Climate change is perhaps the greatest challenge of our 
times. We see firsthand in my State, a State of 40 plus million 
people, how difficult it is to deal with drought, flooding, and 
catastrophic wildfire that will only get worse as the climate 
continues to change further.
    The recent fire, the big fire up north that burned 15,000 
homes, is the worst wildfire California has ever had, and this 
is part of the reason my State has committed to eliminating net 
carbon emissions by 2045 economy wide. As the chairman has 
frequently noted, nuclear power is the largest source of 
carbon-free power and could be a major part of this effort to 
cut greenhouse gas emissions. However, the current fleet of 
large-scale, light water reactors have at least three major 
weaknesses.
    For one, we have no solution for the disposal of highly 
radioactive nuclear waste. Two, new nuclear power plants have 
prohibitively high upfront end costs. And three, nuclear power 
presents significant risks to the general public in the event 
of a critical accident. If nuclear reactors are to have a 
future and become a viable tool in combating climate change, 
then, I believe, they must address these weaknesses.
    There are now over 82,000 metric tons of spent fuel stored 
at 77 reactor sites in 33 States, with the vast majority of 
this still stored in deep storage pools. In California alone, 
there are over 3,000 metric tons, which is to say more than 
8,000 highly radioactive plutonium rods stored close to the 
Pacific Ocean and major population centers in an earthquake 
prone State. Mr. Chairman, you and I have worked for 6 years to 
move this waste away from reactor sites. We have tried to 
create a more robust nuclear waste system by supporting private 
storage sites, Government storage sites, and creating a new 
process for selecting a permanent disposal facility. The fact 
is that waste storage must be solved if there is to be a future 
for nuclear power. You have my promise to keep pushing on this 
issue until we finally find a solution.
    Mr. Chairman, 10 years ago this subcommittee was preparing 
for the renaissance of nuclear power in the United States. 
Today, we find ourselves in a very different position and that 
renaissance has not come to pass. The two reactors in South 
Carolina have been abandoned after massive cost overruns and 
schedule delays. The two that remain under construction in 
Georgia are estimated to cost twice their original estimate--an 
eye-popping $30 billion. Construction is only continuing 
because State Officials in Georgia have decided to charge 
ordinary ratepayers with this whopping bill.
    Mr. Chairman, we still live under the shadow of the 
Fukushima Daiichi disaster in 2011. It caused the evacuation of 
300,000 people and billions of dollars in economic and 
environmental damage. Today, 8 years later, authorities in 
Japan are still pumping water into the melted reactor cores--
after 8 years--in an effort to keep them cool until they can 
decommission the plant. In response, U.S. industry, as required 
by the Nuclear Regulatory Commission, has taken steps to ensure 
that equipment and procedures are in place in the event of a 
severe accident. But the fact remains that today the reactor 
fleet needs active intervention to maintain safety systems in 
order to prevent a meltdown like we saw at Fukushima. 
Tomorrow's reactors must have enhanced safety features that 
virtually can eliminate terrible events like Fukushima.
    Bill Gates recently came into my office to talk about the 
role nuclear energy could play in combating climate change. He 
is actually building his own nuclear reactor, believe it or 
not. It is his belief that advanced nuclear represents the most 
promising chance to generate the carbon-free, base load 
electricity. We will need to power our economy while also 
eliminating greenhouse gas emissions. So, it comes to bear that 
there are promising technologies and I am very proud of the 
investments we have made through the Department of Energy to 
pursue these opportunities. And there are many companies 
developing advanced reactors, including Mr. Gates' company, 
TerraPower, and I hope they can lead the way in this area.
    I do agree that our research and development efforts should 
include support for advanced nuclear technologies with a focus 
on new materials, control systems, and advanced fuels that 
enhance the safety of the current fleet. But I also believe 
that new nuclear technologies must overcome the challenges of 
an existing nuclear fleet if they are going to be a viable 
solution. That means lower upfront costs, less nuclear waste, 
and increased accident tolerance.
    Mr. Chairman and members, I look forward to hearing from 
our witnesses about how advanced nuclear reactors can resolve 
some of these difficulties the nuclear industry faces, and help 
us combat climate change at the same time. Thank you very much.
    Senator Alexander. Thank you Senator Feinstein, and it is a 
pleasure to begin another Congress working with you on this 
subcommittee. We have had a terrific working relationship the 
last several years and will continue with that. We will now 
have opening statements from any Senators if they wish to make 
them, and we will start with Senator Hyde-Smith, and then go to 
Senator Shaheen, and then Senator Kennedy. Senator Hyde-Smith.
    Senator Hyde-Smith. Thank you, Mr. Chairman and Ranking 
Member. It is just an honor to join this committee--I look 
forward to working with you. And today one of our witnesses is 
a graduate of the University of Mississippi, Dr. Zacharia, so 
welcome to D.C. as well--welcome to the meeting. Thank you.
    Senator Alexander. Thank you, Senator Hyde-Smith. Senator 
Shaheen.
    Senator Shaheen. Thank you. Mr. Chairman, I will wave my 
statement except to say that I am also a graduate of the 
University of Mississippi.
    [Laughter.]
    Senator Alexander. Well, it is getting a little thick here.
    [Laughter.]
    Senator Alexander. Senator Kennedy.
    Senator Kennedy. I am not a graduate of the University of 
Mississippi, but it beats a small town.
    [Laughter.]
    Senator Alexander. And I want the audience to duly note 
that all of the last three Senators all took note of Senator 
Howard Baker's--the advice Senator Dirksen gave to his son-in-
law, Senator Howard Baker, after his maiden speech on the 
Senate floor, which was way too long. He said, Senator Baker 
perhaps you should occasionally enjoy the luxury of an 
unexpressed thought----
    [Laughter.]
    Senator Alexander. And all three of those Senators followed 
that rule very well.
    [Laughter.]

                          DEPARTMENT OF ENERGY


                        Office of Nuclear Energy

    Senator Alexander. I will now recognize Mr. McGinnis to 
provide his testimony on behalf of the Department of Energy. 
Mr. McGinnis, please proceed.
STATEMENT OF MR. EDWARD MCGINNIS, PRINCIPAL DEPUTY 
            ASSISTANT SECRETARY
    Mr. McGinnis. Thank you very much. Chairman Alexander, 
Ranking Member Feinstein, and members of the subcommittee, I am 
very pleased to appear before you today to discuss the 
profoundly important matter of advanced nuclear technology 
development. Before I begin my formal testimony, however, I 
would like to take a moment to commend Congress and in 
particular members of this subcommittee for your leadership in 
advancing nuclear energy as evidenced by the recent passage of 
the Nuclear Energy Innovation Capabilities Act late last year 
and the Nuclear Energy Innovation Modernization Act, which was 
just signed into law this past Monday. This Administration is 
fully committed to nuclear energy as a vital component of our 
Nation's energy system.
    As the major source of reliable, resilient, and clean base 
load electricity, nuclear energy is a very, very important 
strategic national asset for the United States. It is an 
essential element of our Nation's diverse energy portfolio, 
helping to sustain the United States' economy and sustain our 
national goals. A strong domestic nuclear industry enabled by 
the existing nuclear fleet and enhanced by game-changing 
advanced nuclear technologies is critical to our Nation's 
energy security, national security, environmental 
sustainability, and economic prosperity.
    However, the nuclear energy sector is undergoing a major 
transformative period of time due to a variety of factors that 
include changing and very challenging market conditions, as was 
mentioned, an aging fleet of a reactors, and a need for greater 
nuclear energy product choices and innovative business 
technology deployment models available to customers. We are 
literally at a crossroads, in my humble opinion, with our 
Nation's nuclear energy sector. And what we do the next few 
years will be determinative for, not just us now, but also for 
our children and their children from an economic, energy, 
environmental, and national security standpoint.
    Fortunately, there are literally dozens of U.S. nuclear 
reactor design companies, some of whom are here today looking 
to seize the opportunity as we work through advancing highly 
innovative, small, scalable, flexible, versatile, and more 
financeable nuclear reactors. These innovative concepts 
comprise the full range of reactor sizes and types, including 
advanced micro reactors, small modular reactors, and large 
reactors based on designs ranging from light water, high 
temperature gas, molten salt, and liquid metal fast cooled 
reactors.
    We are not only seeing game-changing and highly disruptive 
advancements in the U.S. nuclear energy space, but also in the 
advanced manufacturing area as well, as was mentioned. For 
instance, the Oak Ridge National Laboratory is working with 
Idaho National Laboratory and private industry to build the 
world's first 3D printed, barrel size micro reactor. This 
project, which we call the transformational challenge reactor 
or TCR, aims to demonstrate the use of additive manufacturing 
as a viable route to faster, cheaper, and better components in 
nuclear applications. If we can demonstrate its use by printing 
an entire reactor that achieves criticality and produces power, 
we will have positioned ourselves to truly leapfrog current 
manufacturing methods. That is what I call a game changer.
    We are also working on addressing the need for a fast test 
reactor capabilities, such as a reactor which would accelerate 
innovation in advanced fuels and materials for U.S. nuclear 
vendors and pave the path for the U.S. to achieve a global 
leadership and advanced nuclear R&D by a reestablishing this 
capability.
    Furthermore, many advanced reactor concepts, including the 
Department of Energy's Versatile Advanced Test Reactor, will 
need high-assay low-enriched uranium, otherwise referred to as 
HALEU, for which there is currently no commercially available 
supply. That is one key reason why the Department recently 
announced its intent to demonstrate the enrichment of HALEU 
based on U.S. technology. DOE (Department of Energy) is working 
with the Department of Defense to support micro reactors to 
provide resilient and clean power for both commercial and 
national security needs.
    I firmly believe that with a focus on sustained, 
collaborative, private-public partnership approach to support 
early stage R&D, and by working closely and thoughtfully 
together with key U.S. stakeholders, this committee, and all of 
Congress, we can indeed revive, revitalized, and expand our 
Nation's nuclear energy sector and restore our global nuclear 
energy leadership. Thank you very much, and I will look forward 
to taking any questions.
    [The statement follows:]
                Prepared Statement of Edward G. McGinnis
    Chairman Alexander, Ranking Member Feinstein, and Members of the 
Subcommittee, I am very pleased to appear before you today to discuss 
the profoundly important matter of advanced nuclear technology 
development.
    As the major source of reliable, resilient and clean baseload 
electricity, nuclear energy is a very important strategic national 
asset for the United States. It is an essential element of our Nation's 
diverse energy portfolio helping to sustain the U.S. economy and 
support our national goals. A strong domestic nuclear industry enabled 
by the existing nuclear fleet and enhanced by game-changing advanced 
nuclear technologies is critical to our Nation's energy security, 
national security, environmental sustainability and economic 
prosperity.
    Today, nuclear energy is the third largest source of domestic 
electricity generation and is the largest source of clean energy. As 
baseload electricity sources, nuclear power plants also contribute to 
the reliability and resilience of the electric grid and can provide 
price stability. From an energy attributes perspective, nuclear energy 
is utterly unique. No other energy source provides 24/7, 365-day, 18-24 
month full-power generation without stoppages for refueling than 
nuclear power; and no other energy source has the density of power 
provided by nuclear. To put the density of power in perspective, there 
are approximately 8652 electricity generating plants, of all types, in 
the United States providing electricity to our citizens and only 59 of 
these plants are nuclear--less than 1 percent of the plants and only 10 
percent of installed capacity; yet, providing 20 percent of all of our 
Nation's electricity and almost 60 percent of our clean non-carbon-
emitting generation.
    Nuclear power plants also serve as bedrocks and anchors to 
communities across the country According to a Nuclear Energy Institute 
fact sheet, nuclear energy supports almost half a million jobs. That 
factsheet also indicates that the U.S. nuclear energy fleet is a 
significant contributor to the U.S. economy, stating that it 
contributes over $60 billion to our gross domestic product (GDP), $10 
billion in Federal taxes and $2.2 billion in State taxes each year.\1\ 
Nuclear power plants drive local economies as well, often serving as 
the largest employer and economic engine of small communities.
---------------------------------------------------------------------------
    \1\ https://www.nei.org/CorporateSite/media/filefolder/resources/
fact-sheets/nuclear-by-the-
numbers-20180412.pdf.
---------------------------------------------------------------------------
    The first commercial nuclear power plants came on-line in 1969 and 
the average age of the nuclear fleet is now 38 years. Almost all of the 
operating plants have received approval to conduct at least one 
capacity uprate and to date; these uprates have contributed 8 gigawatts 
electric (GWe) of additional nuclear capacity. Efficiency improvements 
have also significantly increased the total amount of nuclear 
generation, helping to keep nuclear energy at 20 percent of the 
Nation's total electricity generation even though the total number of 
nuclear units has decreased. This is a true testament of our Nation's 
world-class plant operators, which consistently demonstrate the highest 
capacity factors of any nuclear fleet in the world.
    Of the operating nuclear reactors, 87 have received license 
extensions to 60 years and another three have applications currently 
under review or pending. Three plants (six reactors), Florida Power and 
Light's Turkey Point (two reactors), Exelon's Peach Bottom (two 
reactors) and Dominion's Surry (two reactors), have applied for a 
subsequent license renewal to 80 years. The Nuclear Regulatory 
Commission (NRC) is currently reviewing these applications.
    Dominion has also announced its intention to seek subsequent 
license renewal for its North Anna plant (two reactors) in Virginia.
    Unfortunately, since 2013, 7 reactors have retired prematurely 
(i.e., prior to license expiration) and 12 more are scheduled to retire 
as a result of historically low natural gas prices, and flat or 
declining demand. While premature retirements have generally been 
driven by market conditions, in other instances, State policies 
contribute to the retirement of plants, such as in California (Diablo 
Canyon), New York (Indian Point), and New Jersey (Oyster Creek). An 
additional 7 reactors would be slated to retire prematurely had New 
York and Illinois not included nuclear energy in their clean energy 
policies. New Jersey and Connecticut have also taken similar steps to 
ensure the continued operation of their nuclear power plants. It would 
be incredibly harmful to U.S. energy security, economic prosperity, and 
environmental sustainability if this shutdown trend were to grow. To 
put the magnitude of this last point into perspective, a recent Brattle 
Group study noted that the total generation lost from the 4 nuclear 
power plants (5 reactors) that are scheduled to retire prematurely in 
Pennsylvania and Ohio is considerably greater than all of the solar and 
wind generation combined in PJM in 2017 (39 million Megawatt hour (MWh) 
nuclear vs. 26 million MWh renewable in 2017).\2\ If we do not stop 
this downward trajectory now, it may be too late to recover and realize 
the benefits of advanced nuclear technologies in the future.
---------------------------------------------------------------------------
    \2\ https://www.nei.org/CorporateSite/media/filefolder/resources/
reports-and-briefs/Impacts_of_
Premature_Nuclear_Retirements_in_Ohio_and_Pennsylvania.pdf.
---------------------------------------------------------------------------
    Sustaining the current fleet of operating nuclear power plants is a 
priority for the Nation because without a robust nuclear industry, we 
will not be able to reestablish a strong pipeline of advanced nuclear 
technologies and associated U.S.-based supply chains, nor maintain the 
fuel cycle infrastructure and workforce necessary for a vibrant 
civilian nuclear industry.
    Even with all of these benefits, the nuclear energy sector is 
undergoing a major transformative period of time due to a variety of 
factors that include changing and very challenging market conditions, 
an aging fleet of reactors, and an absence of nuclear energy product 
choices and innovative business/technology deployment models available 
to customers. The industry needs to identify and implement solutions 
that enable nuclear power to maintain its critical role in the Nation's 
energy mix in the future. We are literally at a cross-roads with our 
Nation's nuclear energy sector, and what happens in the next few years 
will be determinative for not just us, but for our children and their 
children from an economic, energy, environmental, and national security 
standpoint. Having led the Department of Energy's (DOE) international 
nuclear energy cooperation for 11 years and served approximately 10 
years prior to that working on global nuclear nonproliferation matters, 
I can assure you that Russia and China are determined to become the 
dominant nuclear suppliers in the world. This is far, far more than 
just electrons on the grid, I can assure you.
    We are down in the fourth quarter, but thanks to an incredible bow-
wave of highly innovative and disruptive U.S. nuclear technology 
developers and game changing manufacturing approaches, the industry it 
in the red zone and in a position to take the lead in a dramatic, 
disruptive and transformational manner; not unlike what we have seen 
with reusable rockets in aerospace, hydraulic fracturing and 
directional drilling in the oil and gas sector, and smart phones in the 
personal telecommunications sector.
    Today, utility customers and communities around the United States, 
who may be interested in acquiring nuclear energy's long-term clean and 
reliable source of power for their communities, are faced with a rather 
startling limited choice of only large or larger nuclear reactors 
designed to produce over 1,000 megawatts (MW). These large reactors can 
require more than 10 years to build before generating revenue from 
power production. Additionally, many U.S. utilities and international 
markets find these GW class reactors simply too large for their 
electricity grids. As long as there are only large and larger reactors, 
nuclear energy will remain constrained relative to its true market 
potential.
    So what do we see happening to respond to this lack of product 
choice by those who otherwise would very much like to have the unique 
attributes offered by nuclear energy? We see the market respond through 
the emergence of dozens of U.S. nuclear reactor design companies 
looking to seize this opportunity by advancing highly innovative small, 
scalable, flexible, versatile and more financeable nuclear reactors. 
These innovative concepts include small modular reactors (SMRs), micro 
reactors, high temperature gas reactors, molten salt reactors, and 
liquid metal fast reactors.
    The flexibility offered by SMRs and many other advanced reactors 
also enhance the ability to load follow and integrate with renewables 
as integrated, or hybrid, energy systems. This is an important 
evolution of nuclear energy as the grid continues to rely on higher 
concentrations of variable and intermittent generation.
    The innovative design features of advanced reactors also enable new 
opportunities for power plant siting. SMRs and micro reactors are being 
considered for microgrids, remote locations, or even data centers and 
military bases. It is envisioned that many of these reactors could also 
be placed near or in population centers, with little to no emergency-
planning zone (EPZ)--something the NRC is currently evaluating. In 
fact, the NRC staff is already reviewing one major innovation that 
would exempt the NuScale design from the requirement to have safety- 
related electrical power for its primary safety systems. In the event 
of a loss of offsite power or loss of coolant, the reactor is designed 
to not need such power and to passively shut down safely on its own. 
This advancement has the added advantage of allowing this type of 
reactor to provide black start capability. The implications to 
distributed generation and resiliency are frankly enormous.
    The innovative design features of advanced reactors also enable new 
opportunities for power plant siting. SMRs and micro reactors are being 
considered for microgrids, remote locations, or even data centers and 
military bases.
    Another class of reactors that is really generating considerable 
interest are micro reactors which typically range from approximately 1-
10 MW. Both stationary and transportable designs are being developed. 
Due to their unique designs, micro reactors may well be the first 
advanced non-light water reactors to be commercially available. And if 
we think a 1 MW reactor is insignificant, we should think again. A 1 MW 
micro reactor can provide round-the- clock clean electricity for up to 
10 years to over a 1,000 homes.
    We are not only seeing game changing and highly disruptive 
advancements in the U.S. nuclear reactor design space, but also in the 
advanced manufacturing area as well. For instance, Oak Ridge National 
Laboratory (ORNL) is working with INL and private industry to build the 
world's first 3-D printed barrel sized micro reactor. This project, 
which we call the Transformational Challenge Reactor (TCR), aims to 
demonstrate the use of additive manufacturing as a viable route to 
faster, cheaper, and better components in nuclear applications. If we 
can demonstrate its use by printing an entire reactor that achieves 
criticality and produces power, we will have positioned ourselves to 
truly leap frog current manufacturing methods! This is what I call a 
game changer.
    Finally, the U.S. industry is leading multiple advanced nuclear 
fuels development efforts with some of the design components already 
being tested in U.S. commercial reactors. These designs offer real 
potential for substantially improved economics and safety margins for 
our existing fleet and advanced reactors as well.
    I hope what I have said thus far gives the Subcommittee a sense of 
the tremendous opportunity facing the United States due to the bow-wave 
of U.S. advanced nuclear companies, and the historic demand and need 
for new and innovative nuclear energy products and services. Now I'd 
like to shift the discussion a bit to discuss the role the Office of 
Nuclear Energy plays in supporting the development of these concepts.
    Government support through early-stage R&D can help stimulate the 
nuclear industry as it works to address particularly high-risk 
fundamental technical challenges. Utilizing our greatest strengths, the 
Department is mobilizing its world-class capabilities, and supporting 
targeted early-stage research and development (R&D) partnerships 
between academia, the national laboratories and the U.S. nuclear 
industry.
    One recent action we have undertaken to better support innovative 
technology developers was the release of a multi-year funding 
opportunity announcement (FOA) to support early- stage R&D of advanced 
nuclear energy technologies for application in the existing fleet and 
also advanced reactor designs. This industry FOA is intended to provide 
efficient, versatile and flexible ways by which DOE can effectively 
implement R&D partnerships to support our
    U.S. nuclear industry. This FOA is a key element of the Gateway for 
Accelerated Innovation in Nuclear (GAIN), providing cost-shared support 
to the domestic nuclear industry for early- stage nuclear R&D. In only 
its first year, 15 awards have been made under this innovative FOA, 
totaling approximately $80 million in DOE investment.
    GAIN was launched a couple of years ago and has revolutionized the 
way my office works with industry. Through GAIN, NE is working closely 
with the private sector to establish effective private-public 
partnerships focused on accelerating the development innovative nuclear 
technologies. The support of the Department of Energy and its world-
class laboratories is essential to the U.S. nuclear industry as it 
works to bring forth new innovative technologies and approaches.
    The Department is also focusing on infrastructure needs to develop 
advanced nuclear technologies. We have assessed our national 
infrastructure across our national laboratory complex, universities and 
industrial research centers and have taken action to provide our 
technology developers with the capabilities they need. For example, in 
November, 2017, the Department restarted the Transient Reactor Test 
Facility (TREAT) at INL. This facility is needed as part of the 
material and fuels qualification processes. Furthermore, we are working 
to address the need for a fast test reactor. Such a reactor would 
accelerate innovation in advanced fuels and materials for U.S. nuclear 
vendors and pave the path to U.S. global leadership in advanced nuclear 
R&D by reestablishing this capability. Requirements have been developed 
and an R&D plan has been created. The fiscal year 2019 appropriation of 
$65 million will help us continue to move forward with this project to 
regain a necessary capability to test and validate advanced fuels and 
materials so that American innovators can develop cutting edge 
technology here in the United States.
    Furthermore, many advanced reactor concepts currently under 
development, will need high- assay low-enriched uranium (HALEU), for 
which there is currently no commercially available supply in the world. 
HALEU is uranium that is enriched between 5 to 20 percent U-235. NE is 
very familiar with this issue and is now working to demonstrate 
domestic HALEU production capability. The Department believes that it 
is particularly important at this moment in time for the new class of 
U.S. advanced reactors, including micro reactors, attempting to get to 
market that a domestic demonstrated HALEU production capability be 
demonstrated, given there is no domestic HALEU production capability 
and many of the advanced reactors will require HALEU fuel.
    The Department is also exploring other innovative and collaborative 
approaches to support our Nation's evolving electricity grid. One such 
area is our collaborative work with the Office of Energy Efficiency and 
Renewable Energy on integrated energy systems, also referred to as 
hybrid energy systems. Optimization of nuclear and variable renewables 
could be a very important way to meet clean electricity needs, and it 
could also prove to be a disruptive step-change improvement for non-
electric markets as well. By integrating with variable generation, 
nuclear plants can increase operational flexibility and provide process 
heat for industrial applications, hydrogen production, or desalination 
and wastewater treatment, thereby increasing revenue generation and the 
overall economics of nuclear power.
    There are other actions the Federal Government and industry can 
take to enable first movers and help create market opportunities. 
Federal, State and private sector policies and mandates helped create 
market opportunity for early deployment of renewable energy 
technologies.
    The benefits of that market creation are now being realized in the 
form of cost reductions and increased penetration. Google's recent 
decision to include nuclear in their 100 percent clean energy goal is 
definitely a step in the right direction. DOE is also working with the 
Department of Defense to develop requirements for, and components of, a 
pilot program for micro reactors to provide resilience for national 
security infrastructure.
    The Administration is fully committed to nuclear energy as a vital 
component of our Nation's energy system. I firmly believe that with a 
focused and sustained collaborative private-public partnership approach 
to support early-stage R&D, and by working closely and thoughtfully 
together with key U.S. stakeholders, this Committee and all of 
Congress, we can indeed revive, revitalize, and expand our Nation's 
nuclear energy sector and restore our global nuclear energy leadership. 
By leveraging our national laboratory system, and enabling innovative 
thinking across academia and the private sector, we can support 
industry's development of a new and highly innovative class of U.S. 
advanced nuclear reactors, an innovative and responsive nuclear energy 
supply chain, and advanced nuclear energy fuel cycle technologies, 
positioning the U.S. for continued energy dominance in the 21st 
century. By taking these actions, we can help ensure that future 
American generations continue to benefit, as we have, from this 
emission-free, reliable, and secure power source for our Nation.
    Thank you very much and I look forward to answering your questions.

                       NONDEPARTMENTAL WITNESSES

    Senator Alexander. Thank you. Mr. McGinnis. Dr. Zacharia, 
welcome.
STATEMENT OF DR. THOMAS ZACHARIA, DIRECTOR, OAK RIDGE 
            NATIONAL LABORATORY
    Dr. Zacharia. Chairman Alexander, Ranking Member Feinstein, 
and members of the subcommittee, thank you for the opportunity 
to appear before you today.
    My name is Thomas Zacharia and I am Director of Oak Ridge 
National Laboratory in November. In November 1943 at ORNL, the 
world's first continuously operating nuclear reactor went 
critical just 9 months after construction began, and it 
produced the world's first nuclear electricity in 1948. 
Building and operating this reactor drew on the Nation's best 
talent and the state of the art in Science, Technology, and 
Engineering. ORNL, the laboratory that evolved around the 
reactor, has been a major contributor to the development and 
deployment of both navel and commercial nuclear power reactors. 
ORNL continues to pursue advances in nuclear energy, but with 
tools far beyond those available in 1943.
    The resources available to ORNL, thanks to investment made 
by the Nation, include remarkable capabilities in neutron 
sciences, material science and engineering, advanced 
manufacturing, sensors high performance computing, and 
artificial intelligence in combination with unparalleled assets 
in nuclear science and engineering. Through our 
transformational reactor platform, we are applying these 
resources and those of our partners to deliver advances that 
could transform the nuclear power industry. But today, by far 
the largest non-CO2 producing nuclear energy sources at risk, 
in the next 7 years 12 reactors are scheduled to retire. Many 
more will follow starting in the early 2030s. Today's fleet 
could essentially be gone in 35 years. Meanwhile, other nations 
are expanding their nuclear power, often with help from China 
and Russia. We are falling behind the rest of the world in a 
field that we pioneered.
    A major challenge is cost, as was already pointed out by 
both the chairman and the ranking member. The U.S. nuclear 
industry is searching for ways to modernize nuclear technology 
and increase its adoption, but it relies largely on materials, 
manufacturing methods, and designs that have changed very 
little in the past 50 years. Let me emphasize, the TCR approach 
does not compete with a small modular reactor and other 
advanced reactors, but strives to change the manufacturing 
paradigm.
    The goal of our TCR platform is to enable the 
revitalization of U.S. nuclear power by exploiting 21st century 
materials and manufacturing processes, and accelerating the 
certification and qualification of new components and systems 
for safe and reliable operation. The result will be a fully 
validated platform that can be used to dramatically reduce the 
cost of advanced nuclear technologies, put these technologies 
to work, while maintaining and enhancing safety, simplifying 
operations, and meeting regulatory requirements. We are already 
engaged in designing and fabricating prototype core sections 
using resources at ORNL that were previously applied to the 
development of additively manufactured fuel nozzles for GE 
aircraft engines. GE now has a 3D printed engine that powers a 
12-person business aircraft that will go into full production 
in 2020, consolidating 855 parts to just 12 and reducing the 
design cycle from 12 years to just 2 years.
    Advances in advanced manufacturing make it possible to 
design parts that are impossible to fabricate using 
conventional methods, to produce these parts in days, or even 
hours, and then to modify designs and production processes in 
response to the results of characterization or testing, all at 
a cost far below that of conventional manufacturing. TCR team 
members are leveraging these advances to design, fabricate, and 
test the core of a nuclear micro reactor. Before you are two 
prototypes--one sitting on my table and there is one that is 
behind you that demonstrate the power of TCR. They will also 
create a digital twin of each physical part of the reactor 
core. They will use data analytics to extract and evaluate 
detailed information about each part, and they will build a 
digital platform that brings this information together to 
codify the science behind additively manufactured nuclear 
components and systems, and provide a sound basis for their 
qualification and certification.
    We are currently working with the DOE Office of Nuclear 
Energy to finalize the plan Congress requested for the TCR. We 
expect that the TCR platform to culminate in the operation of a 
micro reactor within 60 months. This is an aggressive schedule 
and producing a 3D printed nuclear reactor in 5 years--it is an 
audacious goal. But reflecting on the 75th Anniversary of the 
first criticality of the graphite reactor, we are inspired by 
recalling that the first demonstration of a nuclear chain 
reaction had taken place less than a year earlier, and that the 
Manhattan Project realized its ultimate goal less than 2 years 
later.
    Using the tools that we have today, we can build on this 
legacy to accelerate the deployment of clean, reliable, 
resilient, safe, and affordable nuclear power for the Nation. 
The platform can shape a new approach to the design, 
manufacturing, licensing, and operation.
    Thank you again for the opportunity to testify. I will be 
happy to answer any questions.
    [The statement follows:]
                 Prepared Statement of Thomas Zacharia
    Chairman Alexander, Ranking Member Feinstein, and members of the 
Committee: Thank you for the opportunity to appear before you today. It 
is an honor to provide this testimony on the future of nuclear energy 
and the work of Oak Ridge National Laboratory (ORNL) and its partners 
to accelerate the deployment of advanced nuclear reactor technology.
                              introduction
    My name is Thomas Zacharia, and I am director of ORNL, which 
recently celebrated an important anniversary. On November 4, 1943, the 
world's first continuously operating nuclear reactor went critical, 
just 9 months after construction began in the hills of Tennessee.
    The X-10 Graphite Reactor quickly achieved its mission of 
demonstrating plutonium production for the Manhattan Project. When the 
war ended, it became a key resource for nuclear energy research and 
development (R&D). In fact, the first nuclear electricity was produced 
at Oak Ridge in 1948, when heat from the Graphite Reactor was harnessed 
to drive a toy steam engine, generating enough electricity to light a 
flashlight bulb.
    The construction and operation of the Graphite Reactor drew upon 
the Nation's best intellect and the state of the art in science, 
technology, and engineering. The national laboratory that evolved 
around the reactor has been a major contributor to the development and 
deployment of both naval and commercial nuclear power reactors. 
Researchers at ORNL continue to work with the nuclear industry to 
ensure and expand the availability of this important carbon-free energy 
source.
    Today, however, we have tools far beyond the imagination of the 
Manhattan Project scientists and engineers. The resources available to 
ORNL, thanks to investments made by the Nation, include remarkable 
capabilities in materials science and engineering, advanced 
manufacturing, instrumentation and control (I&C) systems, high-
performance computing, and artificial intelligence, in combination with 
unparalleled assets in nuclear science and engineering.
    We are confident that focusing these resources and those of our 
partners on the development and deployment of advanced reactor 
technologies can have a transformational impact on the challenges 
facing the Nation's nuclear power industry. Our new approach to 
providing clean, reliable, resilient, and affordable nuclear power for 
the Nation is called the Transformational Challenge Reactor, or TCR.
                                why tcr?
    Commercial nuclear power plants provide about 18 percent of the 
electricity in the United States, and they are by far the largest non-
CO2-producing assets in the national power portfolio. Nuclear power 
should be an essential element of our low-carbon energy strategy. The 
U.S. nuclear industry faces challenges, however, in the age of the 
existing nuclear fleet and the complications of adding new nuclear 
assets to the mix.
    Twelve of the Nation's currently operating power reactors, 
representing a combined capacity of 11.7 gigawatts, are scheduled to 
retire within the next 7 years. A wave of additional retirements is 
expected in the early 2030s, and the current fleet could essentially be 
gone by the middle 2050s. Economic pressures could accelerate this 
decline in nuclear generating capacity.
    Since the mid-2000s, the nuclear industry has been looking for ways 
to modernize nuclear technology and increase its adoption. The 
principal challenge to the expansion of nuclear power in the United 
States is the high capital cost of new reactors, which is driven 
primarily by the costs associated with specialized materials, 
fabrication of unique components, and construction.
    The Tennessee Valley Authority has built several large natural gas 
combined cycle units in recent years; as a rough rule of thumb, a 1000-
megawatt natural gas combined cycle plant can be built for about $1 
billion. This provides a price point for any advanced nuclear reactor 
to be economically competitive.
    The Nation's only current reactor construction project is the 
Vogtle expansion project in Georgia. In 2008, the estimated cost of 
this project to add two new 1,215-megawatt pressurized water reactors 
to an existing plant was $14.3 billion, and the reactors were scheduled 
to come on line in 2016 and 2017. Ten years later, the cost has nearly 
doubled, and completion of the first reactor is still more than 2 years 
away.
    Small modular reactors (SMRs) are being considered because of their 
smaller footprints, lower capital risk, less demanding security 
requirements, efficiency of modular construction in the factory, and 
other advantages. We do not yet have clear pricing on SMR deployment 
and operation. The TCR approach has the potential to make SMRs more 
price competitive with other current energy options, including 
renewable energy.
    The goal of the TCR program is to enable the revitalization of the 
Nation's capabilities in nuclear power by substantially reducing the 
cost and accelerating the deployment of new reactors. To realize this 
goal, the program will combine the latest innovations in materials, 
manufacturing, and machine learning to enable the rapid and economical 
production of nuclear energy systems that are not limited by the 
constraints of conventional manufacturing and pre-1970s materials, but 
that demonstrably meet or exceed the rigorous standards that ensure the 
safety of nuclear power.
    The country's current approach to nuclear energy development and 
deployment relies largely on materials, manufacturing methods, and 
designs that were innovative in the 1950s and 1960s, but no longer 
represent the state of the art. Many of the ``advanced'' reactors now 
being proposed are evolutionary concepts that do not take full 
advantage of recent breakthroughs in science and technology.
    The TCR program will address these challenges by developing and 
demonstrating the disruptive capability needed (1) to create, deploy, 
and operate innovative nuclear energy systems that exploit 21st century 
materials and manufacturing processes and (2) to accelerate the 
certification and qualification of nuclear components and systems for 
safe and reliable operation by coupling advanced materials and 
manufacturing with forefront I&C, data analytics, and machine learning.
    The program exploits the exceptional skills and resources available 
at ORNL and other U.S. Department of Energy (DOE) national 
laboratories, including the specialized facilities needed to support 
the development, testing, and qualification of nuclear energy systems. 
It also draws on collaborations with academia and industry to implement 
this new approach to nuclear power.
    In particular, ORNL is working closely with Argonne National 
Laboratory (ANL), Idaho National Laboratory (INL), and BWX 
Technologies, Inc. (BWXT), one of the Nation's leading nuclear 
manufacturers. Our team has prepared an aggressive plan to establish 
and demonstrate a blueprint for combining advanced manufacturing, data 
science, and materials science to enable advanced nuclear energy 
systems. The availability of this fully validated blueprint will 
dramatically reduce the deployment costs and timelines of nuclear 
energy components and systems, while maintaining and enhancing safety, 
simplifying operations, and meeting regulatory requirements.
                                why now?
    Around the world, other nations are expanding their nuclear power 
programs to meet rising demands for electricity and reduce their carbon 
emissions. According to the International Atomic Energy Agency's Power 
Reactor Information System,\3\ China has 46 nuclear power reactors in 
operation, with another 11 reactors under construction. In India, 22 
reactors are in operation and 7 are under construction. Japan restarted 
five of its existing power reactors in 2018. Nations in the process of 
adding nuclear power capacity to their energy mix include Bangladesh, 
Turkey, and the United Arab Emirates. State-owned Chinese and Russian 
companies are selling nuclear power plants to other countries.
---------------------------------------------------------------------------
    \3\ Power Reactor Information System, ``The Database on Nuclear 
Power Reactors,'' available on line at https://pris.iaea.org/PRIS/
home.aspx (accessed 2 January 2019).
---------------------------------------------------------------------------
    In the United States, the nuclear energy sector is contending not 
only with the high cost of manufacturing and deploying new reactors and 
the aging of our current fleet of nuclear power plants, but also with 
the lack of a clear pathway for disposal of nuclear waste and a 
complicated regulatory framework that needs updating to support the 
deployment of advanced nuclear energy technologies. This combination of 
factors has sharply constrained the development of commercial nuclear 
energy in the United States. As a result, we are now falling behind the 
rest of the world in a field that we pioneered.
    The decision by Congress to allocate $30 million to the TCR program 
in fiscal year 2019 enables us to begin shaping a new approach to the 
challenges of reactor design, manufacturing, licensing, and operation. 
The TCR program is a key to securing our ability to provide clean, 
reliable, resilient, and affordable nuclear power for the Nation, with 
benefits to the environment and our national and economic security.
                               why ornl?
    ORNL is DOE's largest science and energy laboratory, with an R&D 
portfolio that spans the range from fundamental science to 
demonstration and deployment of breakthrough technologies for clean 
energy and national security. Our mission explicitly includes both 
scientific discovery and innovation, so we place a high value on 
translational R&D--the coordination of our basic research and applied 
technology programs to accelerate the deployment of solutions to 
compelling national problems. Our ability to mobilize multidisciplinary 
teams and to form partnerships with universities, industry, and other 
national laboratories is a vital asset in this regard.
    I have briefly mentioned ORNL's strengths in computing, materials, 
manufacturing, I&C, and nuclear science and engineering. Our assets 
include DOE's largest materials R&D program, which supports three 
scientific user facilities focused on understanding, developing, and 
exploiting materials (the Spallation Neutron Source, the High Flux 
Isotope Reactor, and the Center for Nanophase Materials Sciences); the 
Oak Ridge Leadership Computing Facility (OLCF), which hosts the world's 
most powerful supercomputer, Summit, as well as growing capabilities in 
artificial intelligence and machine learning; the Manufacturing 
Demonstration Facility sponsored by the Advanced Manufacturing Office 
in DOE's Office of Energy Efficiency and Renewable Energy; and an 
extensive program in nuclear energy R&D, supported by specialized 
facilities and highly skilled staff.
    By way of illustrating our ability to deliver on the TCR program 
goals, here are a few examples of how we have deployed these assets to 
solve problems in nuclear energy.
Developing New Materials for Nuclear Applications
    For the past six decades, the fuel rods in commercial nuclear power 
plants have been sheathed with corrosion-resistant zirconium alloys. 
Under normal operating conditions, this cladding material performs 
well, but a loss of active cooling in the reactor core can have severe 
consequences, as we saw at Fukushima in 2011. In response to Fukushima, 
DOE's Office of Nuclear Energy initiated an aggressive R&D program to 
identify accident-tolerant fuel system technologies. Beginning in 
fiscal year 2012, ORNL worked with General Electric to develop an iron-
based alloy as a replacement cladding material. By mobilizing a team of 
experts in nuclear engineering, materials science, radiation effects, 
corrosion, thermomechanics, and alloy fabrication, we were able to 
produce and test this new alloy, called ``IronClad,'' in 6 years-- much 
faster than the traditional approach to materials development, which 
can take twenty years or more. In February 2018, a non-fueled test 
assembly made with IronClad was placed in Unit 1 at Southern Nuclear's 
Edwin I. Hatch Nuclear Plant near Baxley, Georgia. This brings us a 
step closer to deploying a technology that will make our existing 
reactors even safer than they are today.
Using Additive Manufacturing to Produce Reactor Components
    ORNL's High Flux Isotope Reactor is one of the world's leading 
research reactors. It is equipped with a set of control elements (an 
inner cylinder and four curved outer plates) that surround the reactor 
core. These control elements consist primarily of an aluminum alloy 
that contains embedded neutron-absorbing materials. They last about 8 
years, and fabrication of new ones is both expensive ($3 million per 
set) and time-intensive (2--3 years).
    A team of ORNL researchers undertook the production of these 
components using ultrasonic additive manufacturing (UAM). They 
developed an integrated segment production process and verified the 
properties of the new components using x-ray radiography, optical 
microscopy, neutron irradiation, and neutronics analysis. The results 
demonstrate that UAM offers the potential for significant savings in 
the cost and time required to produce new HFIR control elements.
Developing Embedded Sensors and Controls
    Many of the measurement systems used in today's nuclear power 
plants are based on the same instruments and methods used in the 
Graphite Reactor in 1943. DOE's Nuclear Energy Enabling Technologies 
(NEET) initiative supports the development of advanced instrumentation 
that can operate in the harsh environment of a nuclear reactor. At ORNL 
and other national laboratories, NEET-sponsored research is leading to 
new sensors and controls that can be embedded in the components of a 
nuclear power plant. The TCR program will leverage these efforts to 
develop and demonstrate how such sensors can be incorporated into 
reactors, and thereby provide additional operational insights into 
these harsh environments.
Predicting Nuclear Reactor Performance
    Since 2010, ORNL has led a partnership that is working to 
confidently predict the performance of nuclear reactors through 
science-based modeling and simulation. The Consortium for Advanced 
Simulation of Light Water Reactors (CASL) takes advantage of ORNL's 
leadership-class computers and exceptional strengths in nuclear science 
and engineering. It also draws on the resources of a formidable set of 
core partners: three national laboratories (Idaho, Los Alamos, and 
Sandia), three research universities with strong nuclear engineering 
programs (the Massachusetts Institute of Technology, North Carolina 
State University, and the University of Michigan), and three partners 
from the nuclear power industry (the Electric Power Research Institute, 
the Tennessee Valley Authority, and Westinghouse).
    CASL has connected fundamental research and technology development 
to develop VERA, a Virtual Environment for Reactor Applications that 
can simulate the operation of a nuclear power plant. When the Tennessee 
Valley Authority started up its Watts Bar Unit 2 reactor in 2016, VERA 
was used to perform hour-by-hour simulations of the new plant's first 6 
months, with predictions providing important data to support the 
achievement of full-power operations. The results of the simulations 
agreed closely with the actual operational data--directly demonstrating 
the predictive capabilities of VERA. In addition, Westinghouse used 
VERA to simulate the startup of its new AP1000 pressurized water 
reactor, confirming its engineering calculations.
    CASL is also collaborating with the Nuclear Regulatory Commission 
(NRC) on the use of high- fidelity, advanced modeling and simulation 
tools in the regulatory environment, with an emphasis in fiscal year 
2019 on the use of these tools in a licensing environment for accident- 
tolerant fuel.
Integrating Advanced Software and Additive Manufacturing of Reactor 
        Components
    ORNL and BWXT are already working together to develop a process for 
nuclear design and manufacturing through the integration of advanced 
software with additive manufacturing processes. We are leveraging a 
combination of in situ process monitoring technologies, modeling, and 
data analytics (1) to rapidly develop the processing conditions for 
materials used in reactor core and other primary system components and 
(2) to demonstrate component-level qualification, leading to 
certification of nuclear materials configured in complex geometries.
    This project is supported by a $5.4 million cost-share award from 
DOE's Office of Nuclear Energy.
Developing the Workforce Needed to Support Advanced Nuclear Energy
    The design, construction, and operation of nuclear power plants 
requires a specialized workforce, and the advent of advanced reactor 
technologies will expand the need for highly skilled workers, who are 
already in short supply. Several DOE and ORNL programs directly address 
this need. At ORNL, we are particularly proud of our work with area 
community colleges and universities to provide students with the 
industry-recognized credentials and degrees that they need to work in 
advanced manufacturing. Our Nuclear Engineering Science Laboratory 
Synthesis program brings nearly 50 students to ORNL each year for 
internships. In partnership with the University of Tennessee, we offer 
an interdisciplinary graduate education program in nuclear energy. The 
Consortium for Advanced Simulation of Light Water Reactors, which we 
lead for DOE's Office of Nuclear Energy, is supporting the development 
of a new generation of reactor designers, scientists, and nuclear power 
professionals. In addition, we are currently assisting two early-career 
entrepreneurs in the development of an advanced nuclear reactor through 
our Innovation Crossroads program, which is supported by DOE's Office 
of Energy Efficiency and Renewable Energy.
                       what will tcr accomplish?
    During the next 5 years, the TCR program will design, fabricate, 
and test the core of a nuclear microreactor, first in a non-nuclear 
demonstration, and then in a nuclear demonstration. The core will 
consist of an integrated fuel and cladding structure with embedded 
cooling channels and sensors for monitoring performance. During the 
non-nuclear demonstration phase (Phase 1), the core design will evolve 
as the TCR team works through fabrication, assembly, analysis, and 
testing of the components of a surrogate core. This illustrates one of 
the key advantages of additive manufacturing: the ability to design a 
part that would be impossible to fabricate using conventional 
techniques, produce it in days or even hours, and then modify the 
design or the manufacturing process in response to the results of 
characterization or testing, all at a cost dramatically lower than that 
of conventional manufacturing.
    We are already engaged in designing and fabricating prototype core 
sections, using resources at ORNL that were previously applied to the 
development of additively manufactured fuel nozzles for GE aircraft 
engines. These components can now be manufactured as a single piece, 
instead of a complex assembly of 20 pieces, resulting in fuel nozzles 
that weigh 25 percent less, cost 30 percent less, and are 5 times as 
durable. These fuel nozzles went from a concept 5 years ago to a 
reality today.
    In addition, GE has now demonstrated a fully functional 3D-printed 
jet engine. More than a third of the components in GE's Advanced 
Turboprop (ATP) engine, rated at 1,300 shaft horsepower, will be built 
through additive manufacturing methods. The engine will power Textron 
Aviation's upcoming 10-person business aircraft, the Cessna Denali. It 
is going through flight tests this year and will go into full-scale 
production in 2020. The design went from 855 parts to 12 and the design 
cycle was reduced from 10 years to 2 years. These innovations are 
fundamentally changing the aerospace industry.
    Additive manufacturing has delivered similar cost savings, 
efficiency improvements, and energy savings for land-based gas turbines 
and in the defense industry. The TCR project will demonstrate the same 
kinds of advances for the nuclear industry.
    In parallel with core development and fabrication, the TCR team 
will develop a ``digital twin'' of each physical part of the core. 
These digital twins will have access to all of the data streams 
captured before, during and after the manufacturing, characterization, 
and testing of each part, and to the results of sophisticated 
monitoring of parts in operation. Data analytics will be applied to 
extract information from these large-volume data streams, and a digital 
platform that consists of and connects all of these data streams will 
codify the science behind additively manufactured nuclear components 
and systems, providing a sound basis for their qualification, 
certification, and eventual licensing for operation.
    The nuclear demonstration phase (Phase 2) builds on the results of 
the non-nuclear demonstration and includes nuclear core production, 
employing the advanced manufacturing processes and digital platform 
developed during Phase 1; nuclear fuel production and delivery; reactor 
system design, development, and assembly; and the initiation of nuclear 
testing of a full- temperature critical operating core. The development 
of the digital platform will be extended in Phase 2 as new materials 
and technologies are designed, manufactured, and incorporated into the 
nuclear core. Our expectation is that the TCR program will culminate in 
the operation of a microreactor within 60 months.
    The results of the TCR program will provide a fully validated 
``blueprint'' for combining advanced manufacturing, materials science, 
and machine learning to enable advanced nuclear energy systems. This 
blueprint offers a pathway to substantial improvements in nuclear 
manufacturing and to simplification of the supply chain.
    For example, if parts can be rapidly and reliably produced using 
advanced manufacturing-- especially unique parts that are expensive to 
design and fabricate using conventional techniques--then we can remove 
the need to maintain an inventory of parts, shorten the duration of 
plant outages associated with replacement part production (and 
potential delivery delays), and avoid the stagnation of part designs 
and the difficulties of introducing new materials for ``standard'' 
parts. The direct involvement of industry in the TCR program will 
facilitate the translation of the program's innovations to practice.
                            closing remarks
    The Transformational Challenge Reactor program has an audacious 
goal and an aggressive schedule. Nevertheless, as we reflect on the 
75th anniversary of first criticality at the Graphite Reactor in 
November 1943, we are inspired by recalling that the first 
demonstration of a nuclear chain reaction had taken place less than a 
year earlier, and that the Manhattan Project realized its goal less 
than 2 years later.
    With the knowledge and tools available to us today, we have both an 
opportunity and a responsibility to accelerate the development and 
deployment of clean, reliable, resilient, and affordable nuclear power 
for the Nation. The TCR program can shape a new approach to the design, 
manufacturing, licensing, and operation of nuclear reactors for which:
  --design constraints can be relaxed, and increased complexity can be 
        achieved--because we can build them,
  --more efficient regulatory approaches can be used--because of the 
        depth of understanding gained while building them,
  --operational envelopes are widened--because we have deep insights 
        into real-time and predictive performance,
  --a rapid innovation cycle is achievable--because we can quickly 
        demonstrate concepts,
  --flexible and scalable solutions can be deployed--because the 
        technology approaches can be rapidly adapted to new designs, 
        and
  --autonomous operation is achievable--because we can adapt approaches 
        already in use to enhance reliability and performance, reduce 
        operator workload, and increase safety margins.
    Thank you again for the opportunity to testify. I welcome your 
questions on this important topic.

    Senator Alexander. The question we had--what is this?
    [Laughter.]
    Dr. Zacharia. So, Senator Alexander that is a prototype. It 
took less than a week to additively manufacture. We had two 
designs we came up with and what you see--
    Senator Alexander. Prototype of what?
    Dr. Zacharia. Prototype of this battle reactor that we are 
hoping to deploy. The Transformational Challenge Reactor 
Platform will take a design and take it directly from a CAD 
drawing to a 3D printer that builds that reactor 30 micron 
layer at a time. The advantage is that you will see some 
channels on the outside--those are conformal cooling channels 
that is wrapped around. There is no way you can manufacture 
that in any other way, other than additive manufacturing. This 
allows this reactor to take advantage of this turnaround time.
    The idea that you can think up of a design and actually 
build a prototype within a week--granted this is aluminum 6061, 
we will then now go to steel and super alloys, and ultimately 
refractory metals. That is the platform that is the power of 
this Transformational Challenge Reactor Platform. While we 
build this thing a layer by layer, we can also collect complete 
data of the quality of each layer, so that when the reactor is 
built, we have a complete data set of how this reactor is 
built. We can then import it into a digital twin, so that when 
the reactor is operating, we can compare the behavior of the 
reactor with this digital twin to ensure that it is operating 
safely.
    Senator Alexander. Thank you. We will come back to that. 
Dr. Back from California.
    [Laughter.]
    Senator Alexander. Welcome.
STATEMENT OF DR. CHRISTINA BACK, VICE PRESIDENT, 
            NUCLEAR TECHNOLOGIES AND MATERIALS, ENERGY 
            GROUP GENERAL ATOMICS
    Dr. Back. Thank you. I am proudly from California. Yes.
    Chairman Alexander, Ranking Member Feinstein, thank you for 
inviting me. America is losing one of its most important 
sources of clean electricity generation at the very time when 
clean energy has become more important than ever. The largest 
single source of clean electricity generation, has been 
discussed over 50 percent, is nuclear energy. Yet, year-by-year 
plants are being shut down. If we want to ensure that our 
electricity becomes cleaner, we must bring new advanced 
reactors online now. This means we must substantially reduce 
the cost of power produced by nuclear reactors that can 
generate less nuclear waste and even reuse existing waste. It 
also means that the U.S. needs to make long-term R&D 
investments now to help develop the new technology.
    Robust nuclear power is critical for our national and 
energy security. If the U.S. is going to lead, we need to have 
substantial and sustained Federal funding to develop new, non-
light water reactors that meet all of the criteria that this 
subcommittee first established in the fiscal year 2014 Energy 
and Water Appropriations Bill--namely to dramatically improve 
nuclear power performance, including sustainability, economics, 
safety, and proliferation resistance. General Atomics is 
committed to meeting all of the subcommittee's goals through 
out nuclear reactor, the Energy Multiplier Module, EM2.
    In our 60 years of experience building and designing 
innovative reactors, we have deployed 66 TRIGA reactors that 
are so safe that some are sited at hospitals. We have built the 
first commercial high temperature helium gas cooled reactor and 
now we are also designing an ultra-safe micro reactor. EM2 uses 
materials engineered for extreme conditions and new energy 
efficient conversion technologies to produce electricity at a 
much more attractive cost. It would be even safer than existing 
reactors, increase thermal efficiency by at least 60 percent 
over water cooled reactors to make nuclear energy much more 
economically competitive, convert nuclear waste from a 
liability into an asset by reusing that fuel, decrease 
significantly the required upfront capital cost by 
standardizing production in factories and transporting it to 
sites, significantly reduce the proliferation risks associated 
with nuclear power production, and allow flexibility to be 
sited at locations without large bodies of water. EM2 could 
truly revolutionize the industry.
    Progress requires judicious investments to reduce the 
uncertainties of using new reactor materials and technologies. 
These investments will enable the U.S. to leapfrog to reactors 
with significantly higher conversion efficiencies. GA believes 
in this revolutionary transformation so strongly that we have 
been investing in an engineered silicon carbide composite 
material, that we call SiGA, which unlike metals does not melt 
at extremely high temperatures. DOE can play a critical role in 
incorporating these innovative technologies into the next 
generation of nuclear reactors.
    However, we are up against a real challenge. With the 
present limited funding, there is enormous pressure to build 
something now, instead of investing in the disruptive 
technologies that can make nuclear power much more competitive. 
It is as if we had decided to make small incremental changes in 
rotary telephones instead of embracing the advances in 
technology that make today's smartphones like this possible, 
which almost everybody has. We think, in our view that it would 
be of great help if the subcommittee would consider funding a 
small number of new technology reactor concepts, each starting 
at about $10 million and growing to $30 million annually over 
about 5 years. This level would allow further development of 
these concepts to determine whether they will fulfill their 
promise, and whether then to proceed to a truly advanced pilot 
plant. Any recipients would have to pay their required cost 
share. Their funding would continue or terminate depending on 
their progress. And it is also important to fund the DOE and 
NRC to achieve efficient and timely licensing.
    To help, GA has started on a budding effort called 
Accelerated Fuel Qualification, a methodology which brings 
together modeling and simulations. Support is growing among all 
the stakeholders, and I am convinced that this integrated 
approach will complement the licensing process to make it more 
efficient while improving upon safety. We have received small 
levels of assistance from DOE for which we are grateful, and 
now we need your support to ensure these exciting, new, 
disruptive technologies are not left behind in the rush to 
build reactors whose performance fall short of being game 
changers.
    Thank you for the creation of and continued support of the 
Accident Tolerant Fuel Program. It enables GA to develop light 
water reactor fuel rods with EM2, SiGA material that will 
extend the life of current reactors by reducing their operating 
costs, and enhance their safety by making Fukushima like events 
even more unlikely. This ATF work in turn, has contributed to 
advancing out EM2 project.
    In closing, I believe that the threshold of developing and 
demonstrating advanced materials and technologies that can make 
energy attractive again is on the threshold of happening now, 
and again, we are on the cusp of making a change in nuclear 
energy. Thank you very much. I am happy to take any questions.
    [The statement follows:]
              Prepared Statement of Christina Back, Ph.D.
    Chairman Alexander and Senator Feinstein, thank you for inviting me 
to speak on advanced nuclear reactors.
    America is losing one of its most important sources of clean 
electricity generation at the very time that diverse and reliable clean 
energy sources have become more important than ever.
    The largest single source of carbon-free electricity generation--
more than 50 percent in the U.S.--is nuclear energy. Yet, year by year, 
more nuclear plants are being shut down.
    If we want to ensure that our electricity grid remains as clean, if 
not cleaner, than it is today, then we must make sure that we bring new 
nuclear power plants online. That means the U.S. must reduce 
substantially the cost of future nuclear reactor systems that can not 
only generate less waste, but even consume existing nuclear waste.
    It also means that the U.S. now needs to make long-term investments 
to help develop the new technology. We cannot get where we need to go 
by using 60-year-old water-cooled reactor technology. The U.S. should 
be in the forefront of exploiting the technological advances that have 
occurred since then.
    A robust nuclear power industry is important for the national and 
energy security of our country. If the U.S. is going to lead the world 
into a future of nuclear power, we must develop advanced reactors based 
on new technologies that meet all of the criteria you established in 
the fiscal year 2014 Energy and Water Appropriations bill: namely, that 
they would ``dramatically improve nuclear power performance including 
sustainability, economics, and safety and proliferation resistance.''
    General Atomics has an extraordinarily talented staff that has 
designed and developed reactors optimized for particular needs. We 
developed the TRIGA reactor for non-power applications such as neutron 
radiography and for training future generations of nuclear scientists 
and engineers. Sixty-six were sold throughout the world, and they are 
so safe that they are even sited at hospitals. We also demonstrated the 
first commercial high temperature gas-cooled reactor showing the 
advantages of helium gas instead of water as a coolant. More recently, 
we are designing an ultra-safe and transportable very small modular 
reactor (vSMR), or micro-reactor, that is suitable for DoD 
installations where electricity costs are very high, and energy 
security is of paramount importance.
    By incorporating scientific advances of the last 60 years, GA's 
future nuclear reactor builds on our decades of experience with helium 
reactors. We call it the Energy Multiplier Module, EM,\2\ and it uses 
materials engineered for extreme conditions, and new technologies to 
efficiently convert heat to electricity. This reactor is designed to 
accomplish all of the Subcommittee's goals for advanced reactors.
    Specifically, EM\2\ at either its full scale of 265 MWe per 
reactor, or demonstration scale of 50 MWe would:
  --Be even safer than existing LWRs, by further reducing the risk of 
        Fukushima-like events
  --Increase thermal efficiency by at least 60 percent over current and 
        projected water-cooled reactors. We believe this increase in 
        efficiency will be the driver in cutting nuclear electricity 
        costs by nearly half, making them much more competitive with 
        coal and natural gas
  --Convert nuclear waste from a liability into an asset by using it as 
        part of the fuel used by this new reactor. This capability can 
        effectively eliminate the argument that nuclear waste 
        represents an insoluble problem
  --Decrease significantly the upfront capital required to build a 
        reactor by making small modular reactors that could be 
        manufactured in factories, transported to the site, and brought 
        online within 5 years
  --Significantly reduce the proliferation risks associated with 
        nuclear power production, and
  --Enormously increase the number of locations suitable for reactors 
        by making it possible for them to be sited away from large 
        bodies of water
    If we are able to successfully demonstrate this reactor, we will 
truly revolutionize this industry!
    The key to progress today is to make judicious investments to 
reduce the uncertainties of using new reactor materials and new 
technologies, thus enabling the U.S. to leapfrog to significantly 
higher power generating efficiencies. As an example, GA's engineered 
silicon carbide composite material, named SiGATM, is a ceramic fuel rod 
material that does not melt and qualitatively improves the resistance 
to intense high temperature and neutron radiation conditions. Another 
key technology meriting serious investment is new high uranium-density 
fuels to improve fuel efficiency. Capitalizing on new technologies will 
require development work and DOE can play a leading role in shepherding 
the next generation of nuclear reactors.
    With all of these rapidly advancing technologies, the reactor for 
tomorrow is not the reactor of today. A sustained amount of funding is 
needed before we, or anyone else, could decide to build a pilot plant. 
Our reactor concept may not be the only one that aims to meet the 
Subcommittee's goals. Thus we recommend that you encourage the 
development of any reactor concept that can meet all of this 
Subcommittee's objectives.
    However, we're up against a real challenge--there is enormous 
pressure to build a reactor as soon as possible, using only existing 
technologies. If we do not make the investments NOW in new materials 
and innovative technologies, we will be missing out. It's as if we 
decided to make small incremental changes to rotary phones instead of 
embracing advances in microelectronics that make possible today's 
smartphones, which all of us seem to have.
    In our view, it would be of great help if the Subcommittee would 
consider funding a small number of new technology advanced reactor 
concepts, each in the range of $10-$30 million annually for 4-5 years. 
This level would allow further development of these concepts to 
determine whether they can fulfill their promise. Any recipients would 
have to pay their required cost share. Funding would continue, or 
terminate, depending on their progress.
    Also, the traditional methodology of licensing which relies only on 
experimental data is outdated, and needlessly long and expensive. 
Today, with better understanding of the underlying science, and the 
speed of modern computing, normal and off-normal operations can be 
quickly simulated for many scenarios to assess and quantify risk. This 
has led to a budding effort named Accelerated Fuel Qualification (AFQ). 
AFQ is a methodology that brings together modeling and simulation, with 
targeted experiments, to assess the materials and their performance. I 
am convinced this integrated approach can modernize licensing to reduce 
time and cost, without sacrificing safety. This methodology is used in 
other disciplines and must be embraced.
    To facilitate a timely deployment of new reactor materials and 
technologies, it would be important to fund the DOE and NRC to develop 
and implement this AFQ methodology. This support could start at about 
$15 million for the first 2 years, growing to about $50 million 5 years 
out. This effort would involve industry, academia, and the National 
Labs.
    We have received small levels of assistance from DOE for which we 
are grateful. Now we need your support to ensure that these new, 
exciting longer-range, technologies are not left behind in the rush to 
build reactors whose performance may fall short of becoming game 
changers.
    We thank you for the creation of, and continued support for, the 
Accident Tolerant Fuel Program. GA now is applying our EM\2\ silicon 
carbide technologies to develop fuel rods for the current LWR fleet. 
These ATF SiGA rods facilitate LWR lifetime extensions and enhance 
their safety by making Fukushima-like events even more unlikely.
    In closing, I believe we are on the threshold of developing and 
demonstrating advanced materials and technologies that can make nuclear 
energy attractive once again. Please come to San Diego and visit our 
laboratories to see how these materials can transform the nuclear 
industry.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Again, thank you for inviting us today. I am happy to answer any of 
your questions.

    Senator Alexander. Thank you, Dr. Back. We will now go to a 
round of 5 minute questions and may I--I have something I am 
supposed to say here before I do that. Without objection, we 
will include the full written statements of all of our 
witnesses as part of the record. Now, Dr. Zacharia--I just have 
5 minutes so let me--I want to make sure we know what we are 
talking about here. This is a slice of an advanced reactor or 
what would be an advanced reactor--it is about this size, 
right?
    Dr. Zacharia. It is a slice of the core of a reactor. It is 
intended to prove that the Transformational Challenge Platform, 
which is the idea of additive manufacturing----
    Senator Alexander. Yes, I got that. So this is a slice of--
--
    Dr. Zacharia. Correct.
    Senator Alexander. Should it go all the way around like 
that, it would be taller.
    Dr. Zacharia. That is correct.
    Senator Alexander. And what is the material used?
    Dr. Zacharia. This is, right now, aluminum 6061.
    Senator Alexander. And would that be the material that one 
might use for an advanced reactor?
    Dr. Zacharia. No, Senator. This is just to show that we can 
actually do this.
    Senator Alexander. Okay.
    Dr. Zacharia. We will be doing it in----
    Senator Alexander. And the reason you actually do it, just 
to get our minds around it--it is simple in concept, which 
basically you take a material----
    Dr. Zacharia. Yes.
    Senator Alexander [continuing]. Like aluminum 6061 in this 
case?
    Dr. Zacharia. Yes.
    Senator Alexander. And you put it through a tube and then 
the computer gives it directions and you build it layer-by-
layer-by-layer, right?
    Dr. Zacharia. Yes.
    Senator Alexander. So if you build a reactor you would use 
a different material and you would build it layer-by-layer-by-
layer. Now, I think you said that normal machine tools could 
not build this, is that correct?
    Dr. Zacharia. That is correct.
    Senator Alexander. And why is that?
    Dr. Zacharia. If you turned the piece around, you will see 
what looks like cooling channels on the side. If you think 
about it, you cannot--it is not the big holes. It is the small 
channels that you see on the side.
    Senator Alexander. Yes.
    Dr. Zacharia. If you think about a block of metal, you will 
not be able to drill a hole without destroying the piece of 
metal. So by building it layer-by-layer, you can build in 
channels that are very close to the fuel that takes away the 
heat very efficient.
    Senator Alexander. So your argument would be that 3D 
printing can build something that normal manufacturing 
processes cannot. Also this--how much cheaper would it be to 
build something like this compared with today's normal 
manufacturing processes? Any way to measure that?
    Dr. Zacharia. Our example in other areas shows that it is 
an order of magnitude cheaper, in some instances, because we 
are using designs that simply could not be used, and also we 
are combining a number of components. So in my oral testimony I 
said for GE aircraft engine, we were able to reduce the parts 
from 855 to 12. So in a nuclear environment, you are only 
certifying 12 components, in this particular example, instead 
of 855.
    Senator Alexander. So you mean maybe cut in half--when you 
say an order of magnitude, what was that?
    Dr. Zacharia. 10 times.
    Senator Alexander. 10 times----
    Dr. Zacharia. Yes.
    Senator Alexander. Maybe 10 times----
    Dr. Zacharia. Maybe 10 times--so that is what is needed to 
be cost-competitive with natural gas combined cycles.
    Senator Alexander. How many megawatts would a reactor of 
this approximate size produce?
    Dr. Zacharia. We are currently designing this for a single 
digit megawatt reactor.
    Senator Alexander. One megawatt, or four, or five.
    Dr. Zacharia. Yes one--it could be one to five megawatts 
and the reason is, once proven, you can then take it to much 
higher power.
    Senator Alexander. This is about the size though of a 
reactor that might be used in a submarine or a hospital or some 
other places, is that right?
    Dr. Zacharia. Or forward basis. I mean that had lots of 
interest from DOD for micro reactors. So a number of 
applications for 5 to 10 to 20 megawatt reactors for a small 
township.
    Senator Alexander. But could it be used to build a--I 
believe Bill Gates TerraPower reactor is a big reactor, right?
    Dr. Zacharia. Yes.
    Senator Alexander. It would produce hundreds of megawatts. 
Could you--does this offer some advantages to his technology or 
to the other various advanced reactor technologies that are 
probably in the audience today?
    Dr. Zacharia. Yes Senator, we believe that it will help 
small modular reactors as well as any other advanced reactors, 
to varying degrees. And so, we plan to make this platform 
available to all advanced reactor concept manufacturers.
    Senator Alexander. And how many are you working with today?
    Dr. Zacharia. Right now, we are actually focusing on 
demonstrating that this can be used for nuclear reactors. We 
had a workshop, as typically labs do. We invited everybody. We 
already had one workshop that exposed this technology to 
everybody. We have work to do ourselves, and we will work in 
partnership with others.
    Senator Alexander. And in 20 seconds, you have the fastest 
computers in the world, for the moment, at Oak Ridge. Is 
computer modeling one other way to reduce costs for advanced 
reactors?
    Dr. Zacharia. Absolutely, Senator. The computer models are 
used to come up with this innovative designs and optimize the 
design. That is how--and then we will make sure that the 
advances are applied to the manufacturing process.
    Senator Alexander. Thank you. Dr. Zacharia. Senator 
Feinstein.
    Senator Feinstein. To continue with what the chairman is 
saying, the rods are uranium rods. Is that correct?
    Dr. Zacharia. Yes, Senator.
    Senator Feinstein. And what is the waste and where does it 
go? And how does it--is it more waste or less waste?
    Dr. Zacharia. So, because it opens up the design space, we 
can actually use high burner fuel to where you would minimize--
the potential for minimizing the waste excess. So that is the 
advantage that opening up the design space offers.
    Senator Feinstein. Well, explain that a little bit. How 
does it work and how much does it reduce?
    Dr. Zacharia. So, this is right now a prototype design. If 
you go to high burner, it has a potential of designing a 
reactor that could actually have 80 to 90 percent of burn up, 
out of fuel, so that the spent fuel is actually much lower 
radioactivity so that it can be easily----
    Senator Feinstein. No, I am not--I am sorry. I am very much 
a layperson.
    Dr. Zacharia. Okay.
    Senator Feinstein. I do not understand what you have just 
said.
    Dr. Zacharia. What it means is that if you think of the 
efficiency in terms of how much the fuel burns up in a reactor 
can be improved with new designs, and so our hope is that it 
will reduce the waste.
    Senator Feinstein. By how----
    Dr. Zacharia. It is too early Senator to give you a figure 
and so that is why we, as part of this program, will be able to 
give you a better definitive answer.
    Senator Feinstein. Yes because I really worry, you know, I 
go down to Southern, California, Edison and I look at their 
water pool and I see thousands of rods----
    Dr. Zacharia. Yes.
    Senator Feinstein. And I go to PG&E and they are in casks 
that can travel, and there is no place to put them.
    Dr. Zacharia. Yes.
    Senator Feinstein. And so my view is, you know, what are we 
doing? Why are we doing this before we know what we can do with 
the waste and where we can put it? And it just piles up. If you 
go to Southern California Edison, it is 6 million people right 
around it. And it is on the ocean right above the beach. And it 
is really concerning.
    So my view of this is--and you are all brilliant people--
but my view is, you know, I represent the ground where the 
waste goes and stays for a millennium. And I am not eager to 
cover California's ground with this stuff. Particularly, with 
the problems that can be associated with it--which I won't go 
into now. So, what is the advantage exactly of an advanced 
reactor? How much waste does it cut back on? How do you take 
care of that waste? What does it produce that is economic? Can 
you answer those questions?
    Dr. Zacharia. So Senator Feinstein, I think let me clarify. 
The TCR program is not building a new reactor. The intent is 
not to build an advanced reactor. The intent is to build a new 
manufacturing paradigm to include modeling and simulation so 
that any new advanced reactor concepts can take advantage of 
this manufacturing paradigm to one reduce the cost, to insure 
that the concern that you have expressed--that is to ensure 
that we can, actually before a reactor is manufactured, we can 
ensure that--to answer the question, how much waste will it 
generate? What is the safety and what are the costs? So the 
goal is to create a manufacturing methodology using advanced 
computation and additive manufacturing to ensure that any 
advanced reactor concepts can be validated before it is 
actually manufactured--to address your concerns that you just 
expressed.
    Senator Feinstein. So all this is about developing a 
manufacturing technique for something that will do what?
    Dr. Zacharia. This is a manufacturing technique to help 
produce an advanced reactor to ensure that it validates the 
concerns that you have expressed, which is cost, safety, and 
minimizing spent nuclear fuel. And so we have the ability to 
first, take the advanced reactor concept, validate it, and then 
manufacture it.
    Senator Feinstein. How does it minimize waste? And what 
percent, from a conventional reactor, would the waste be 
reduced? Say, take one of the reactors in California.
    Dr. Zacharia. Senator, the specific reactor, you know--
probably the best way to answer that is that specific reactor 
design will have a certain target and basically this capability 
will allow us to manufacture the reactor to that. So perhaps--
--
    Dr. Back. Yes. I would like to maybe step in----
    Senator Feinstein. Sure.
    Dr. Back. I think that there is a very important----
    Senator Feinstein. Could you speak in the mic?
    Dr. Back. Thank you. I just would like to step in and make 
an important clarification which Thomas is trying to mention, 
which is there is a difference between the manufacturing 
methods and the technologies that are really advancing reactors 
to be the next generation, to be able to burn waste, to be able 
to reuse its own waste, as well as burn existing waste--and 
actually we are not burning it, we are actually consuming it so 
that, in the end, you would not have long-lived geological 
waste.
    Senator Feinstein. Well, do you really believe that a 
reactor will eat its own waste?
    Dr. Back. Yes. Yes, we have a design in the energy 
multiplier module and this ties back to the fact that there are 
reactor concepts that need development, to show what we have 
already calculated in an overall sense, to do calculations in 
much more detail--to do preliminary reactor designs--that will 
show that the new technologies like higher power efficiency 
conversion, higher temperatures using materials like the 
silicon carbide cladding--which is actually not a metal but it 
is a ceramic and it does not melt--these kinds of changes in 
advanced reactors will really make the difference between being 
able to eat its own waste, as well as consume the existing 
waste. Those technologies need to be proved out and it is 
different than the manufacturing process, which is important 
for the cost.
    Senator Feinstein. How much did we put in for this? Is this 
the $30 million?
    Dr. Back. Yes we----
    Senator Alexander. Yes. Yes, Senator Feinstein.
    Senator Feinstein. Okay.
    Dr. Back. So we would burn up an EM2 at 80 percent of the 
waste compared to what usual, typical light water reactor, and 
then we would continue to reformulate that into the new fuel 
for the next cycle, and we would continue to consume that 
waste.
    Senator Alexander. We need to go to the other Senators----
    Senator Feinstein. Yes.
    Senator Alexander. Then we will come back and have plenty 
of time for other questions. Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman. Thanks to all of 
you for being here today. Dr. Back, how much money are you 
asking for? Just give me a figure.
    Dr. Back. Yes, as I mentioned in the testimony, we think an 
appropriate amount, which would be subject to your impression--
--
    Senator Kennedy. Just give me a figure, if you would.
    Dr. Back [continuing]. Would be $10 to $30 million for each 
of 5 years to develop the concept----
    Senator Kennedy. So what is the total amount? Just give me 
a figure, if you would.
    Dr. Back. $10 million.
    Senator Kennedy. Total?
    Dr. Back. No. We said to prove out the concepts, to show 
that these higher efficient conversion efficiencies--
    Senator Kennedy. Dr. Back, please just give me a figure, 
how much money you are asking for.
    Dr. Back. We believe that the total cost of a first demo 
reactor would be something like $1.6 billion because we would 
take advantage of small modular reactor constructions----
    Senator Kennedy. Dr. Back.
    Dr. Back. Yes.
    Senator Kennedy. I am really trying to understand and 
follow you all.
    Dr. Back. Yes.
    Senator Kennedy. But you are asking for a lot of money----
    Dr. Back. In a phased approach, sir.
    Senator Kennedy. How much money are you asking us to put in 
the budget?
    Dr. Back. That is what I put in my testimony, which is----
    Senator Kennedy. I have not read your testimony.
    Dr. Back. So $10 to $30 million each year for 5 years to 
develop these concepts to show that we can consume the waste 
and that we can use existing nuclear----
    Senator Kennedy. Okay. And you do not know yet whether you 
can build an advanced reactor or not. This is just to see if 
you can build it.
    Dr. Back. No, there are new materials that are developed. 
This is an example of a fuel rod that is made of ceramics that 
will be inserted----
    Senator Kennedy. Dr. Back, let me stop you a second.
    Dr. Back. Yes, sir.
    Senator Kennedy. Okay. And I am really not trying to be 
rude, but I made a New Year's resolution. And my New Year's 
resolution is that I am not going to sit through any more 
hearings when people are asking me for money unless they are 
prepared to explain to me why. Now, I am not as smart as you 
and I am certainly not a nuclear physicist, but I haven't the 
slightest idea what you all are talking about. I hope that 
thing there is not radioactive.
    [Laughter.]
    Senator Kennedy. Just answer my questions, condescend to me 
for a second. You are not talking about building an advanced 
reactor, you are talking about seeing if you can build one, is 
that right?
    Dr. Back. There is a phased approach----
    Senator Kennedy. No?
    Dr. Back. There is a phased approach----
    Senator Kennedy. See I am not even in the ballpark and I am 
already through half my time.
    Mr. McGinnis. If I may Senator, we have well over 20 
advanced reactor companies seeking to develop at different 
stages of development. General Atomics is that one stage of 
development where they are working on their design to 
infeasibility. We have other advanced reactors, including micro 
reactors, some of which, such as Oklo in Silicon Valley.
    Senator Kennedy. Well, then what are you asking money for?
    Mr. McGinnis. The beauty is some of the companies are not 
asking for a single dime for their development. They are asking 
you----
    Senator Kennedy. Then what are you asking for?
    Mr. McGinnis. I am sorry sir?
    Senator Kennedy. What are you asking for? Because I am 
going to run out of 5 minutes. And I am here to tell you, I 
mean I am really not trying to be rude, and I am the new kid on 
the block. But I was born at night but not last night, and I 
have been to a bunch of these, and I need six gazillion 
dollars, but I do not want to explain to you why, and if you 
ask questions that means you are not as smart as me. I can see 
I am not as smart as you, but I think it is incumbent upon you 
all to explain to us what you want and what you want it for.
    Mr. McGinnis. Sir, I am in the Office of Nuclear Energy, 
Department of Energy, and if I may, this manufacturing 
technique, which we have lost in the United States largely--the 
reactors down in Georgia being built right now, the reactor 
pressure vessels had to be fabricated in South Korea because we 
have lost our capability to manufacture. So we are in the 
process of trying to reconstitute, re-established with advanced 
reactors, advanced manufacturing, and advanced fuels all at 
once because we have little to no time left.
    Senator Kennedy. Can you answer this for me?
    Mr. McGinnis. Yes, sir.
    Senator Kennedy. Why is an advanced reactor better than a 
conventional reactor?
    Mr. McGinnis. Because----
    Senator Kennedy. Like you are talking to a 10th grader.
    Mr. McGinnis. Couple things, one is walk away safe. We have 
these reactors that are under development. Senator mentioned 
from California the safety issues. We have a reactor going 
through the NRC, first time in our history, where they have 
already been checked out and affirmed, and that is it can shut 
down without any electronic pumps or motors or any human 
intervention. That is revolutionary for a reactor class. It 
will shut down if we have a complete loss of power or loss of 
coolant, number one. Number two, these new advanced reactors 
are flexible, more financeable, and the core life--Senator with 
regards to the volume of waste, we have right now 18 to 24 
months is the refueling cycle for U.S. reactors. Every time you 
pull it out, that is going to disposition with the high-level 
waste. We have reactors, such as TerraPower, Bill Gates' 
company, where it is a breed and burn, where these reactor 
course can go 10, 20, maybe 30 years. That means you are not 
pulling on more fuel----
    Senator Kennedy. Okay. I am out of time, okay. I am only 
speaking for me and I really do appreciate you coming, but I 
can tell you I am not going to vote to spend a single solitary 
dime until you are willing to send me something so I can 
understand what you are talking about. Okay. And this is 
taxpayer money we are spending and I do not have the slightest 
idea what you are talking about.
    Mr. McGinnis. Senator, we would be happy to do that----
    Senator Kennedy. And this hasn't been helpful to me. I do 
not mean to be rude, okay. I do not know whether you are 
asking--I do not know the advantage of an advanced over 
conventional. I do not know whether you are asking to build one 
of the things, to study one of the things, to eat one of the 
things. I do not have the slightest idea what you are asking 
for.
    Dr. Back. Senator, we----
    Senator Kennedy. And I do know--I do sense it is a lot of 
money. I am sorry I went over Mr. Chairman.
    Senator Alexander. Well, we will have plenty of time for 
other questions or other time, if the Senator has time, for you 
to explain further what you are doing.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. I just wanted to 
get a clarification. Dr. Zacharia, was this particular part 
built with a 3D printer?
    Dr. Zacharia. Yes, ma'am. Yes Senator.
    Senator Shaheen. That wasn't clear to me. I share the 
perspective that the chairman raised that if we are going to 
address climate change, we cannot take all of our nuclear power 
out of commission. In New England 30 percent of our power comes 
from nuclear, and we are already seeing the effects of shutting 
down Pilgrim in Massachusetts and Vermont Yankee in Vermont--
but where I think we haven't elaborated clearly is that cost is 
a huge issue and one of the reasons cost is an issue is because 
safety is a big concern.
    You know, the Seabrook Nuclear Power Plant in New 
Hampshire, one of the last nuclear plants licensed in the 
United States, the cost increased dramatically because Three 
Mile Island happened in the middle of that construction. We 
were on a path, I thought, towards more support for nuclear 
power until Fukushima happened, and what we have not done, and 
I appreciate that the case you are making is that we can get 
there through the developments we are making in nuclear 
technology, but the concern that the public has is about 
safety--with respect to nuclear power. And until we can answer 
those concerns, I think it is going to be really hard to get 
the increased investment that we need, to address some of these 
nuclear concerns.
    So as you point out, we really have to make the case that 
what you are proposing is going to address those safety 
concerns and the waste issue. And I want to go to one of those 
particular concerns in New Hampshire because what we have seen 
in New Hampshire's--the Seabrook Nuclear Power Plant, has 
encountered issues around concrete degradation due to the 
chemical process called alkali-silica reaction or ASR. And the 
effects of ASR have led to cracks in multiple reactor safety 
structures, and concerns from my constituents about the 
operational safety and security of the plant--and it is a 
particular concern because Seabrook has applied for an 
extension of its license--so, can you talk about, I guess this 
is for you, Mr. McGinnis, what the Office of Nuclear Energy is 
doing to address the effects of ASR and whether my constituents 
should be concerned about safety issues with respect to that.
    Mr. McGinnis. Thank you very much. We work closely with the 
NRC, Nuclear Regulatory Commission, that oversees Seabrook 
Nuclear Power Plant, and we bring all of our assets from all 17 
national labs to bear, as they are the lead, as they need it. 
We use high performance computing for modeling of the actual 
aging and the materials of the components in the existing light 
water reactor. We have some very successful efforts. We are 
using our test reactors to test the materials that are in those 
reactors. We have strong confidence and we have a robust 
program and what is called the Light Water Reactor 
Sustainability Program, supporting the life extensions to 
ensure that we fully, fully understand the out year behavior of 
those components for--the top priority is safety, with economic 
certainly, but priority is safety.
    And I would like to say that I do feel responsible for not 
being as clear and explaining where we are with regards to 
nuclear energy and why, as a Senator said, why is it that we 
are saying that we need support. The gravity of the situation 
with regards to 20 percent of our electricity, equal the one 
out of every five home in the country, nuclear powers is 
providing that electricity. There was one report CSIS that said 
they are predicting that the fleet could disappear within the 
next 20 or 30 years. We have a fleet that is 39 years old. It 
has got to be replaced. We do not have anything equivalent to 
the clean base load that we have with nuclear, or we would see 
what is happening in Germany happen here.
    We are accelerating because time is not our friend. We used 
to think that we had the 2030s to bring in advanced reactors. 
With the premature shut down on the plants happening now, and 
the market challenges, we have concluded we have got to open up 
the advanced pipeline in the 2020s or we are not going to have 
a nuclear industry in the future.
    Senator Shaheen. Okay. I appreciate that. But on the safety 
concerns, I think the NRC and your office would be much more 
convincing if a decision were made about the extension of that 
Seabrook license after the public hearing were held where there 
is an opportunity for arguments rather than before. And right 
now, what the NRC is planning is a decision before the hearing. 
So a decision, I think, at the end of next month and a hearing 
that happened sometime in June. I think that is just the 
opposite of what it should happen. If we are going to convince 
the public that we are really listening to their concerns and 
we are going to be responsive to those concerns, then we got to 
give them an opportunity to have their concerns answered. So I 
would urge you to take a look at that. Thank you, Mr. Chairman.
    Senator Alexander. Thanks, Senator Shaheen. We will begin a 
second round of questions. Mr. McGinnis, let me give you an 
opportunity to do this. The purpose of the hearing is to 
introduce to the Senate some of the ideas for advanced reactors 
over the next several years, and a particular manufacturing 
technology, 3D printing, which might help improve the cost and 
safety of advanced reactors. If you had to say in a few words 
what your goals are for the Department in terms of advanced 
reactors over the next 3 to 5 years, what would that be?
    Mr. McGinnis. Enable the industry, the great innovators 
that we see right now, get into the market, and get into the 
market soonest. That is the number one priority to support 
leveraging our technical capabilities, which are still world-
class unsurpassed by others. We have a global nuclear market 
that directly implicates our domestic market, where we are we 
are being out competed by----
    Senator Alexander. Let me get a little bit more specific. 
So you have seen, you said, more than 20 types of advanced 
reactors. Give me a few examples of the kind of improvements in 
safety and costs that we might be able to see in the advanced 
reactor designs and models that you know about, and the 
Department is working on.
    Mr. McGinnis. Yes, sir. Good point. The NuScale advanced 
reactor, this is a light water reactor, but it is also 
advanced, is going through the NRC right now and being 
validated from a safety perspective. That is going to directly 
translate, in my view, into an improved economics because you 
will no longer need redundant double, triple sensors throughout 
the reactor for the primary safety system because you have a 
right reactor that will then naturally shut down on its own. So 
we have an advance----
    Senator Alexander. So that is the reactor that we have 
funded for the last 4 or 5 years, right?
    Mr. McGinnis. We have been partnering with them. We have a 
number of others that we are definitely partnering with, 
including GA with X-energy and others for light water----
    Senator Alexander. Any examples of the kind of improvements 
they would offer in safety and in cost, other than the 3D 
printing?
    Mr. McGinnis. Yes, major examples. So let's say Tennessee 
Valley Authority, they are looking at NuScale right now at 
Clinch River Site. With the new safety systems, with these 
reactors shut downs on their own, they no longer need a 10-mile 
emergency-planning zone. They can now be sited much closer to 
the power generation needs. The costs associated with 
maintaining the outer planning zones, the cost of maintaining 
those sensors, will significantly go down. So the idea of 
having a passively safe reactor that can shut down on its own, 
that can be distributed in different locations, and then the 
flexibility centered around costs. We were talking about how do 
we, bring down the cost--one of the biggest causes, 
construction and up front. These are modular reactors one bite 
at a time rather than trying to build a thousand megawatt 
reactor all at once, taking much longer as Idaho National Lab 
NuScale is the first location for that site, they have a design 
with 12 small modulars in one reactor----
    Senator Alexander. One advantage is smaller?
    Mr. McGinnis. So yes, and one bite at a time.
    Senator Alexander. Do most of the advanced reactors designs 
that you have seen, are they smaller than the large reactors 
that we have today?
    Mr. McGinnis. Most of them, not all. Bill Gates' TerraPower 
is larger, but the point is that you can scale up. You can 
build the smaller module and add it, so NuScale design consists 
of 12 different 60-megawatt electric reactor units. So that 
means it is a 720-megawatt electric, which is large. And then 
you have others like GA and others like TerraPower, where they 
can be larger or smaller, and I will defer to Dr. Back on that, 
but the point is we lack product choice right now. The 
utilities cannot handle----
    Senator Alexander. So they could be larger or they could be 
smaller.
    Mr. McGinnis. Right. So we----
    Senator Alexander. It could be safer for reasons that you 
have identified?
    Mr. McGinnis. Yes.
    Senator Alexander. They could be located in areas that were 
more convenient or reduce cost?
    Mr. McGinnis. Exactly.
    Senator Alexander. They could be built with manufacturing 
techniques that are new and that were not used for the previous 
models. All of those are--they could use less nuclear fuel than 
then existing models? All of those could be advantages of new 
designs, correct?
    Mr. McGinnis. Absolutely. Absolutely. So, in their load 
following, so we are already doing R&D work with the support of 
this subcommittee, pairing nuclear with wind and solar, and 
that is a promising area as well. So the versatility is very 
important. This is an entirely new class of reactors that are 
coming in. That is the point.
    Senator Alexander. My time is up. Senator Feinstein.
    Senator Feinstein. Well, I mean, I am so frustrated. Every 
time I think I know something, everything has changed and I 
know nothing. And I know the danger and I live on the Pacific 
Coast, and we are the rim of fire for the world, with 
earthquake, as you know--just goes right around the Pacific 
Ocean. And I have been struck by the Japanese problem. And now 
we have a whole new thing again. It is as if nothing ever lasts 
long enough to really be able to evaluate it. I don't know. I 
know I must not make sense to you, but I try to understand it. 
I am not stupid. I have got these facilities in my State and I 
go there, and I look in the spent fuel pools and I sort of 
think, oh my God, you know, I can't believe this, all the rods 
and there they are, hot. And, you know, I read about your Noble 
and you read about what happened in Japan--Chernobyl is a 
wreck.
    Matter of fact, I just read something and had--it is 
totally vacant with an apartment and there is a little vestige 
of a curtain wafting out after all these years in the breeze, 
and I think, you know, what is the future and that is why I 
have tended to come to believe that it is small. That the small 
modular reactors really might be the way to go, and then I 
hear, well the really not economic unless you group them and 
the most economic is you have to group four. I don't know 
whether there is any truth in that, but that is what I have 
been hearing. Could you comment?
    Mr. McGinnis. Yes, thank you very much. It depends on the 
application. A micro reactor such as that could be printed 
here, a 1-megawatt electric, may sound like a tiny reactor--
that can power a thousand homes. In Alaska, Senator Murkowski's 
State, that is a huge deal. So the point about bringing in 
product choice, small micros, small modular, scalable, some 
large--there is still a future for large reactors--but I would 
say that we work day in and out with industry, in the Office of 
Nuclear Energy, and everybody wants an absolute, clear pathway 
for disposition, while we are concurrently bringing in an 
entirely new advanced class of reactors that bring an entirely 
new proposition value situation.
    So we believe that moving forward and stopping to kick the 
can on disposition is vitally important, while we move forward 
on interim storage. And so we are working to bring an entirely 
new class, entirely new choices of safety, economics, 
flexibility, pairing up with wind and solar, while we proceed--
you know, we put in a request for disposition.
    Senator Feinstein. Somehow, in my mind, the world is more 
secure with the smaller reactor. And we have all these 
problems, with terror, with guns, with other things, and from a 
very practical--and Senator Kennedy is very bright man, you 
know. I'll tell--what is this degree you----
    Senator Kennedy. Phi Beta Kappa graduate from Vanderbilt.
    Senator Feinstein. Phi Beta Kappa graduate from Vanderbilt. 
So he is not stupid. I know you are smart. I am medium smart, 
and I really wrestle with this from a moral point of view 
because if you go back to the Manhattan Project, you know, it 
is smart men putting something together that launches the 
country into a whole new sort of ballistic world. And if I am 
going to help launch anything with my little vote, I want to 
know it is safe and it is practical, and it is going to work, 
and it is cost-effective, and yet it keeps changing in front of 
me. So I think that we have to come to grips with that and in a 
field that is dynamic, that has to have a lot of money--sure, 
you are fine if you are Bill Gates, you know, I talked with 
him. He is, you know, very enthusiastic. Well, he can do it. He 
is a billionaire, but for most of us, it is casting a vote in a 
committee and crossing our fingers that nothing is going to 
happen that is bad, with this stuff.
    Mr. McGinnis. I can just say that we are blessed to have a 
Nuclear Regulatory Commission. I have worked----
    Senator Feinstein. Yes, I agree with that.
    Mr. McGinnis [continuing]. Much of my career 
internationally. There is no other safety authority with the 
standards and the stringent approach that the U.S. NRC has. I 
rest well at night knowing that as an independent agency, they 
are our toughest reviewers. And my colleagues can talk about 
that. Certainly first----
    Senator Feinstein. What does the NRC think of this?
    Mr. McGinnis. Thomas----
    Dr. Zacharia. Senator Feinstein, this is, as I mentioned 
before, if I can use an analogy you mentioned California, an 
earthquake. In simple terms, one can design a building to 
withstand earthquake, but it has to be buildable, right? So 
architects come up with a design for a structure that can 
withstand fire and earthquake, but it has to be buildable with 
appropriate materials and appropriate construction tools. What 
you are looking at is really innovation, not in the design by 
an architect of an earthquake-proof building, but really 
innovation in how you build it. Because if you can open up the 
construction mechanisms for building something then the 
architect has much more opportunity to design a building that 
is earthquake-proof. That is what you are seeing.
    So I think the goal of bringing the Prototype today was not 
to say that that is the reactor that we should be building. In 
fact, the goal of showing you the Prototype is to convince--if 
you were saying that your architect now has much more freedom 
to come up with a design, because we believe that this 
manufacturing or this building technique will allow you to 
design a reactor that is safer. It is also much more cost-
effective because we are combining many, many parts into one, 
and it will have detailed information so that we can work with 
NRC to come up with a licensing regime that will be----
    Senator Feinstein. Is this it?
    Dr. Back. No, that is----
    Senator Feinstein. No, that is yours. Do you have a 
picture?
    Dr. Zacharia. No. I do not have one with me.
    Senator Feinstein. You know, I just we have been doing this 
for so many years, and I just get to the point where I 
understand which was the small modular reactor and, you know, 
maybe that is a good idea, you know, maybe it can be done 
right. Maybe we can be safe with it, and then all of a sudden 
there is something new and all we need is one big accident. 
Senator Shaheen was right.
    Dr. Zacharia. So Senator--yes, go ahead.
    Dr. Back. If I may, I would like to come back to your 
concerns. What you listed was, no disposal, nuclear that has 
very high upfront cost, and significant risks and accidents. So 
I think we are looking past the point here and we are not 
getting to the issue, which is we are addressing those issues 
at General Atomics. We have worked with the same design for 9 
years. This is the energy multiplier module. That is the 
picture you are showing----
    Senator Feinstein. Yes, I think I see it.
    Dr. Back. And we fundamentally believe in these new 
materials, which are ceramics that do not melt. This would not 
have allowed Three Mile Island to happen because of the 
behavior. It does not have the exothermic interaction that 
created the Fukushima hydrogen explosion. We are testing this 
now in the Idaho National Lab as part of the Accident Tolerant 
Fuel Program, which actually thanks to you was started right 
after Fukushima. For the costs, the EM2, Energy Multiplier 
Module, uses helium as a gas coolant because----
    Senator Feinstein. What is this?
    Dr. Back. This is a manufacturing process----
    Senator Feinstein. What is the EM2?
    Dr. Back. EM2 is the Energy Multiplier Module and it uses a 
power conversion technology that allows you to have a 
conversion efficiency, which is 33 percent for a light water 
reactor today to 53 percent. For the same amount of heat, you 
get that much more, 60 percent more electricity. That brings 
down the cost, as well as other manufacturing processes, of one 
of which this is the atom added manufacturing. The important 
part about small modular reactors is that you are reducing the 
components so they can be manufactured in a factory, which 
means you can have all of the cost controls and you put out 
large components that are then assembled on site--that is a 
huge reason that we would reduce the cost for any small modular 
reactor. And for EM2, we thought very hard about that. Then for 
the----
    Senator Feinstein. How much does it reduce cost?
    Dr. Back. So we think the cost for a plant would be $1.6 
billion, far cry from the $8 million that was the original 
Vogtle--far cry from $25 million, which is now the escalated 
cost. So we have tried to make a much more compact unit. We are 
using a high efficiency power conversion so we do not lose all 
that heat just out into the air. These are technologies that 
need to be developed in a reactor design, not a manufacturing 
process. That is why we are requesting funds for concepts on 
the order of $10 million in phase, to evaluate, make sure those 
technologies are really--I want to come back to the waste 
issue. We are using a type of reactor that is fundamentally 
different and can consume the existing waste that exists, as 
well as reuse its own fuel after it has gone through a 30-year 
life cycle, and we continue to consume it and use its fuel.
    Current nuclear reactors are very inefficient and we can 
improve that in enormous amount. And we are able to then get 
down to waste that is actually not requiring geological 
disposal. But that requires a new technology that needs to be 
proofed out. And we want to do this. We are excited about doing 
this. We have been working on it for 9 years. We believe in 
these changes----
    Senator Feinstein. What do you say about this? What does 
the Department say about that?
    Mr. McGinnis. That is one of the linchpins of us bringing 
in an entirely new class of reactors. The fuels that Dr. Back 
was mentioning, we are funding three different industry 
consortia to develop fuel rods as was just shown, and we are 
testing them now. One is actually a test. There is a pin in 
Hatch Nuclear Power Plant in Georgia, right now. The utilities 
are very eager to get this, because it gives better 
performance. It can withstand much higher levels of heat, and 
they can follow load, go up and down a little bit more, or 
significantly more, with their power generation. It gives them 
an opportunity to have greater economics while also having 
broader safety parameters.
    Senator Feinstein. Is this where it automatically turns 
off, if you are set talking about that.
    Mr. McGinnis. Some of the new reactors, such as NuScale, 
could use this very same fuel, and also have a passive safety 
system that can shut down. The new reactor systems that----
    Senator Feinstein. Shouldn't we require that of any 
Government funded effort? That it have a safety system to shut 
down?
    Mr. McGinnis. Well, all the reactors have a safety system 
to shut down, be sure of that. The difference is----
    Senator Feinstein. Then what is the difference?
    Mr. McGinnis. This new class of reactors that are coming 
in, many of them would not require any human intervention. If 
you had a complete loss of power, you do not have to worry 
about starting up the generators to get secondary power. The 
reactor is designed in a way where it will just cool itself 
down and go to a steady state of shut down and that's what we 
are working on.
    Senator Feinstein. And you believe that?
    Mr. McGinnis. And the NRC has already validated it. It is a 
very exciting moment that we are witnessing in the U.S. nuclear 
sector right now. I cannot emphasize just how dramatic of a 
change we are witnessing. It is not just General Atomics. A 
little bit further on the timeline, we have reactors going 
through, now, the NRC licensing or about to go through that is 
going to be transformative. From the idea of having walkaway 
safe reactors that are load following, you can pair.
    We will still have a future with large reactors such as 
Bill Gates'. That is a breeding burn and his point is, you are 
going to have far, far less, far less high-level waste that has 
to be put in a repository, just like GA. You are reducing the 
amount of waste, high-level waste that you will have to be dis-
positioning. So if you have a reactor that is refueling every 
18 to 24 months, that means you are bringing in new fuel every 
18 to 24 months. These new reactors, some of them go 20 to 30 
years without refueling. You have much less waste and you are 
getting more out of that waste, out of the fuel when you are 
burning it.
    Senator Feinstein. Are these the small advanced modular 
reactors that you just commented on?
    Mr. McGinnis. They are both. They can be both--the 
attributes that I mentioned here are both small and also in the 
new advanced larger reactors. We have these new features and 
both classes of reactors coming in.
    Senator Feinstein. That sounds interesting. Yes.
    Senator Alexander. I think it is interesting, and I thank 
all of you for your comment. I mean, what we see here, Senator 
Feinstein, is that several years ago we agreed, sort of pursued 
two paths. One was to redouble our efforts to solve the nuclear 
waste stalemate. That is an essential thing to do. And we also 
funded a small modular reactor design, which is a NuScale 
design, which I guess is in his fifth or sixth year of 
partnership with the Department.
    But what we are talking about here is an entire new class 
of reactors, which we call advanced reactors. And there are 
many different designs. And it has attracted a lot of 
attention. And the goal, of course, would be to see if we could 
avoid the problem that is looming, that we completely lose our 
capacity to produce nuclear power, which would deprive us of 
our single most important source of carbon-free, emission-free 
electricity, as well as reliable electricity. And Dr. Zacharia 
has brought today a way of building those reactors that could 
be useful for some of the models to significantly reduce their 
cost. It is not a reactor, it is just a way of building----
    Dr. Zacharia. That is correct.
    Senator Alexander. An approved design--once there is an 
approved design. And the reduction could be, you said I 
believe, as much as 10 times in the reduction of cost. Then you 
have talked about, Mr. McGinnis and Dr. Back, you have talked 
about other advances in safety, in flexibility in size, 
flexibility of location. You have talked about new ways of 
producing power that produce much less used nuclear fuel--all 
of those things. You have talked about, well, that is pretty 
much the summary of what you have talked about.
    And what we have appropriated $30 million for this year, is 
to allow you to examine all these designs and move them along 
and what we have to consider is whether the United States wants 
to invest taxpayer dollars over the next few years in pushing 
ahead one or more of these designs so that we have a nuclear 
industry over the next 30 years. So that is where I see things 
going. Let me ask you this Mr. McGinnis, do we have any design 
certifications submitted to you or to the Nuclear Regulatory 
Commission yet? And if we do not, when do you expect them to be 
submitted?
    Mr. McGinnis: So in addition to the NuScale design that is 
going through the NRC, we have a nonlight water advanced 
reactor that is in pre-discussions with the NRC, poised to 
submit probably soon called X-energy. It is a high 
temperature----
    Senator Alexander. So that would be the first advanced 
reactor design submitted to the NRC?
    Mr. McGinnis. Well, let me step back. Actually, I believe 
the first nonlight water that is an advanced reactor is going 
to be a micro reactor, in my view, and it could happen within 
12 months from now, and it very possibly could----
    Senator Alexander. But we have none now?
    Mr. McGinnis. We none going through the submitted form 
right now.
    Senator Alexander. So we are talking about a new generation 
of advanced reactors which are yet to be submitted to the 
Nuclear Regulatory Commission for design certification?
    Mr. McGinnis. Yes, but we could see that as soon as this 
year. With first the micro reactors had have many of the same 
attributes as the larger advanced reactors. NRC now has new 
advanced reactor guidelines DOE developed, and they have taken 
most of them as we develop them. So we could be witnessing the 
Nation's first advanced non light water reactor going through 
the NRC within a year. And then shortly after, and that would 
be a micro reactor probably--and their construction time is 
much shorter, and DOD, and also industry are very interested in 
that. And lastly is X-energy and other----
    Senator Alexander. Senator Feinstein, when you say micro--
--
    Senator Feinstein. What do you mean?
    Senator Alexander . How many megawatts?
    Mr. McGinnis. A micro reactor could be one megawatt 
electric, five megawatt electric. Legislation has defined it up 
to 50 megawatt electric, but I would say about 1 to 5 to 10 
megawatt electric. It could be the size that can fit in a semi-
tractor trailer container----
    Senator Alexander. So we have the existing reactors. We 
have 98?
    Mr. McGinnis. 98 units operating right now.
    Senator Alexander. We have the NuScale design, which we 
have been in partnership with the NRC in the Department for the 
last several years to try to--that is call the advanced modular 
reactor.
    Mr. McGinnis. Yes.
    Senator Alexander. And we have a new generation of advanced 
reactors, which are being developed, you just mentioned, as 
many as 20 different efforts going on there, maybe more, and 
those are beginning to be submitted to the Nuclear Regulatory 
Commission to see if those designs are safe----
    Mr. McGinnis. Yes.
    Senator Alexander. And whether they will work and can be 
constructed. So those are to come and, you say, coming very 
quickly.
    Mr. McGinnis. Yes and just one example, I just returned 
from West Texas. The Energy Water Nexus is unbelievably 
challenging.
    Senator Alexander. What does that mean?
    Senator Feinstein. Yes.
    Mr. McGinnis. So with regards to the water requirements in 
the energy industry, whether it is oil and gas or other 
industry. They are looking for ways----
    Senator Alexander. You mean how much water you use?
    Mr. McGinnis. How much water is being produced out of the, 
for example, the oil industry. And so they are looking for an 
economic way to treat and desalinate and process the water so 
it could be reusable. So X-energy, for example, is working with 
industry in West Texas to potentially have a small modular high 
temperature gas reactor that can treat the wastewater so it can 
be reusable.
    Senator Alexander. So one use of a micro reactor would be 
to treat wastewater to produce more oil and gas?
    Mr. McGinnis. Right. Micro or small modular, such as X-
energy. It is an exciting area that can have a solution for 
sustainability, water nexus----
    Senator Alexander. Or it might be used in a military site, 
or it might be used in a remote site in Alaska----
    Mr. McGinnis. Absolutely.
    Senator Alexander. Or it might be used in a hospital, or a 
community, depending upon the design and whether that design is 
approved by the Nuclear Regulatory Commission--it is something 
that is safe and practical.
    Mr. McGinnis. Exactly. Multi-purpose----
    Senator Alexander. In all these cases nothing gets done 
unless the Nuclear Regulatory Commission approves safety.
    Senator Feinstein. Yes. Well, I mean, we had plenty of 
accidents with approved safety.
    Senator Alexander. Well, but just to be clear, no one has 
ever been hurt in the United States by a reactor.
    Senator Feinstein. God willing, yes.
    Senator Alexander. That is better than any other form of 
energy. So, well this has been very, very interesting----
    Senator Feinstein. Really has.
    Senator Alexander. And I thank all of you for coming and it 
helps--I remember Dr. Zacharia that I suppose over the last 40 
years, I have been to the Oak Ridge National Laboratory 40 
times and just like Senator Kennedy, I have a Phi Beta Kappa 
degree from Vanderbilt and it took me twenty times to 
understand anything that was going on. But now I think I 
understand it a little better. It is helpful to us and it is 
helpful to the public, I think, to hear what the department is 
doing with advanced reactors and we will need to consider your 
recommendations. I have seen the additive manufacturing 
research at the Oak Ridge Laboratory, truly astonishing. 
Secretary Feinstein, Senator Perry drove a car built in this 
way----
    Senator Feinstein. Is that right?
    Senator Alexander. Which is little hard to grasp when you 
first hear about it, but it worked. And you have people coming 
from all over the country there to do research for how they 
might be able to build an auto tool or a tool or some other 
manufactured part using this lower cost way of manufacturing. 
Senator Feinstein, do you have any other comment?
    Senator Feinstein. No, I do not. Except, I thought for a 
layperson, I find this so fascinating, and yet so intimidating. 
And one of the problems for me is the change, Dr. Zacharia, is 
that every year it is something new and then something bad 
happens and everything stops. And I don't know. I find this is 
a very hard area of human endeavor because there is so much 
fear associated with it and, to some extent I guess, safety can 
never really be guaranteed. There is always something, but I 
thank you all very much.
    Senator Alexander. Thank you.
    Senator Feinstein. Thank you.
    Senator Alexander. Thank you, Senator Feinstein. My concern 
is--I am very impressed with our safety record in the nuclear 
industry, both in the military area, where Admiral Rick told 
every captain of a submarine that if you ever have a problem 
with your reactor your career is over and so we have never had 
a problem. We have never had a death, let's just say that, from 
any since the 1950s, and the record is very, very good. What my 
concern is, what we said at the start, is that we have led the 
world in this technology. I was in China recently. They have 
plans to build more than 40 new reactors. And everybody will be 
building reactors around the world, or many countries will, and 
United States will not be. Just at the time, as Senator 
Whitehouse and I said in our Op-ed in the New York Times, there 
is growing concern about climate change and this is our major 
source of carbon-free electricity.
    So it makes no sense to shut down the reactors we have, and 
to me it makes no sense not to investigate these interesting 
new ideas about advanced reactors, which have the potential to 
give us flexibility in size, in design, and location, and cost 
a lot less, and be safer, and produce less waste than what we 
have today. So this is encouraging to me and I appreciate your 
coming and I look forward to future discussions.
    The hearing record will remain open for 10 days. Senators 
may submit additional information or questions for the record 
within that time if they would like. The subcommittee requests 
all responses to questions for the record be provided within 30 
days of receipt.

                         CONCLUSION OF HEARING

    Thank you for being here. The committee will stand 
adjourned.
    [Whereupon, at 4:08 p.m., Wednesday, January 16, the 
hearing was concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]
</pre></body></html>
